APPENDIX

23092.3

TABLE OF CONTENTS
Appendix A:
Appendix B:

Appendix C:

Appendix D:

Appendix E:
Appendix F:

23092.3

Court of appeals opinion,
Mar. 19, 2020 ............................................ 1a
District court order on
summary judgment,
Sept. 28, 2016 ......................................... 17a
District court order on
reconsideration,
Feb. 6, 2017 ............................................ 48a
District court order on
findings of fact and conclusions of law,
Aug. 7, 2018 ............................................ 63a
District court final judgment,
Aug. 16, 2018 ........................................ 104a
Court of appeals order,
Apr. 21, 2020 ........................................ 106a

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-20576
NORTH CYPRESS MEDICAL CENTER
OPERATING COMPANY, LIMITED; NORTH
CYPRESS MEDICAL CENTER OPERATING
COMPANY GP, L.L.C.,
Plaintiffs-Appellants,
v.
CIGNA HEALTHCARE; CONNECTICUT
GENERAL LIFE INSURANCE COMPANY;
CIGNA HEALTHCARE OF TEXAS,
INCORPORATED,
Defendants-Appellees.
Filed: March 19, 2020
Appeal from the United States District Court
for the Southern District of Texas
Before KING, JONES, and DENNIS, Circuit Judges.
OPINION
EDITH H. JONES, Circuit Judge:
North Cypress Medical Center Operating Co., Ltd.,
and North Cypress Medical Center Operating Co. GP,
(1a)

2a
L.L.C., appeal the adverse judgment rendered by the district court on ERISA claims assigned by Cigna-insured
patients. They contend that substantively and procedurally flawed insurer decisions resulted in underpayment of
more than $40 million in benefit claims. Because the district court correctly applied this court’s decision in Connecticut General Life Insurance Co. v. Humble Surgical
Hospital, L.L.C., which construed an identical provision,
878 F.3d 478, 485 (5th Cir. 2017), North Cypress’s arguments cannot be sustained. We AFFIRM.
BACKGROUND
In 2007, the Plaintiff-Appellants (collectively, “North
Cypress”) opened a general acute care hospital. With the
help of a third-party consultant, North Cypress developed a master schedule of fees for each service. When
North Cypress provided services covered by a patient’s
insurance, it reported the scheduled fee for the services
to the patient’s insurance company. The insurance company was expected to pay most of the fee, while the patient, still nominally responsible for the entire cost, would
be billed for a smaller percentage as coinsurance and possibly a deductible.
North Cypress decided to give its patients a break on
coinsurance. The hospital offered to limit the patient’s coinsurance obligation if the patient paid a certain amount
of what he owed within 120 days. To calculate this
“Prompt Pay Discount,” North Cypress started from
Medicare’s reimbursement schedule, which provided fees
far lower than North Cypress’s master schedule for nonMedicare patients. North Cypress multiplied the Medicare fee by 125 percent, and it then applied the patient’s
in-network coinsurance percentage—even if North Cy-

3a
press was not in-network for the patient’s insurance company. 1 The resulting balances significantly reduced outof-network patients’ coinsurance obligations, but they
also generated substantial revenue for North Cypress
without incurring collection expenses. 2
The Defendant-Appellees (collectively, “Cigna”) administer, and sometimes fund, health insurance plans. All
the plans at issue in this case provide Cigna with discretionary authority to interpret the plans, and all “specifically exclude” from coverage:
Charges for which you are not obligated to pay or
for which you are not billed or would not have been

According to the district court, in-network coinsurance obligations
are typically 20% of the covered service, while patients must pay 40%
of fees to out-of-network providers.
1

For example, if the typical (“Chargemaster”) cost of care were
$10,000:

2

When applying the prompt pay discount, rather than billing
the patient $4,000 North Cypress would calculate a much lower
amount. First, instead of starting with the total Chargemaster
cost of care, North Cypress would start with a lower base
rate—125% of the Medicare rate for the services provided. For
example, instead of $10,000, the base rate might be $2,500.
Then instead of multiplying this reduced base rate by 40%,
North [Cypress] would multiply it by 20%—the patient’s innetwork coinsurance rate. As a result of the discount, the patient in this example would be billed only $500 rather than
$4,000. In contrast, Cigna’s responsibility was unchanged;
North Cypress would file a claim form reporting its total
Chargemaster cost to Cigna and expect the insurer to pay its
60% share—$6,000.
N. Cypress Med. Ctr. Operating Co. v. Cigna Healthcare (North Cypress I), 781 F.3d 182, 188 (5th Cir. 2015).

4a
billed except that you were covered under this
Agreement. 3
Cigna interpreted this language as its refusal to countenance a provider’s “fee forgiveness,” on the ground that
such practices desensitize insureds to the higher cost of
out-of-network medical care.
Throughout the period relevant to this lawsuit, Cigna
insured North Cypress patients at out-of-network rates. 4
In a 2007 letter when it opened for business, North Cypress acknowledged its out-of-network status but noted
that Cigna members would still be eligible for its Prompt
Pay Discount. North Cypress did not explain how it calculated that discount, and Cigna replied with concern that
North Cypress proposed to engage in fee-forgiveness.
Cigna emphasized that it would recognize charges only
insofar as beneficiaries were legally liable for them, adding that it might delay or deny payment until it had “assurance that the charges shown on claim forms are your
actual charges to the patient and that patients will be required to pay amounts such as out-of-network co-insurance and deductibles.” North Cypress replied that the
Prompt Pay Discount “does not waive any portion of
North Cypress’s charges for a service.” North Cypress
The district court found that the plans in this case include this provision. On appeal, North Cypress states in a footnote that “Cigna
never established which plans contained the Exclusion,” but North
Cypress says nothing more on this point in either brief. “Failure of an
appellant to properly argue or present issues in an appellate brief
renders those issues abandoned.” United States v. Beaumont, 972
F.2d 553, 563 (5th Cir. 1992). The district court’s factual finding is,
therefore, undisputed.
3

4
In 2012, North Cypress became an in-network provider for Cigna,
ending this controversy.

5a
did not explain to Cigna that the Prompt Pay Discount
was based on an entirely different fee schedule, the assumption of an in-network coinsurance rate, and the thusconditioned waiver of Cigna’s usual reimbursement requirements.
Until early November 2008, Cigna accepted claims
proffered by North Cypress, paying approximately 80%
of the hospital’s bill based on its master fee schedule.
Prompted by complaints from its insureds about extraordinary out-of-network payments, Cigna became suspicious of fee forgiveness by North Cypress and launched
an investigation. It sent 34 survey letters to Cigna plan
members and received 19 responses. It received a range
of answers and concluded that North Cypress generally
collected $100 from a Cigna-insured patient, if anything.
Consequently, Cigna decided to change its payment
process for North Cypress claims and notified the hospital of its new “Fee-Forgiving Protocol.” Going forward, it
would assume that North Cypress charged patients $100,
and based on this coinsurance payment, it would calculate
the cost of the procedure. Then, it would pay what the patient’s plan dictated for a procedure of that cost at an outof-network hospital. This assumption would be revoked if
the beneficiary (or assignee) showed that the amount submitted was actually the amount charged and that the
Cigna participant had paid the applicable out-of-network
coinsurance amount.
North Cypress protested implementation of the Protocol and, as its patients’ assignee, appealed claims in
Cigna’s multi-level appeals process. Consistently, North
Cypress’s first appeal would be met with a letter from
Cigna conveying that the original decision was based on
Cigna’s policy of not paying charges that patients are not

6a
legally obliged to pay. The letter would explain the process for a second appeal. According to the letter, appeals
were to be decided by a unit separate from the unit involved in the initial decision. The district court found that
Cigna adjusted some claims in favor of North Cypress
during the appeal process, but North Cypress refused to
complete the appeals process for the vast majority of its
claims.
In 2009, North Cypress sued in federal court seeking
relief for claimed underpayments of insurance by Cigna
under state law, RICO, and ERISA. The district court
ruled, in relevant part, that North Cypress lacked standing to pursue ERISA claims. 5 On appeal, this court reversed that ruling and remanded for consideration of the
ERISA claims. North Cypress I, 781 F.3d at 192–95.
After further discovery, the district court responded
to cross-motions for summary judgment by dismissing
North Cypress’s ERISA § 502(a)(3) claims for breach of
fiduciary duty, its ERISA § 503 claims for failure to provide a full and fair review of initial benefit decisions, its
ERISA § 502(c)(1)(B) claims for refusal to provide requested plan documents, and its state contract law claims.
The court also deemed Cigna’s affirmative defense of recoupment to be waived and denied North Cypress’s request for attorney’s fees. Finally, the court narrowed
North Cypress’s remaining claims for patient benefits

5
The district court also dismissed appellants’ RICO claims, state insurance law claims, and state contract law claims, granted a motion
to unseal, and dismissed appellees’ ERISA counterclaims. In North
Cypress I, this court upheld those rulings, except for dismissal of the
state contract law claims, which were remanded. 781 F.3d at 197–207.

7a
under ERISA § 502(a)(1)(B) to those for which it had exhausted administrative remedies, ruling that North Cypress lacked a futility excuse for non-exhaustion.
An eight-day bench trial followed. At trial, the court
refused to reconsider its ruling on exhaustion. Also, the
court dismissed 395 of the exhausted claims that had not
been subjected to the challenged Protocol and had therefore been reimbursed satisfactorily. As to the remaining
180 discretionary decisions made by Cigna regarding
benefit claims subject to the Protocol, 6 the court found no
abuse of discretion and thus no violation of ERISA §
502(a)(1)(B). The court rejected North Cypress’s other
claims. The hospital timely appealed.
STANDARD OF REVIEW
“On appeal from a bench trial, this court review[s] the
factual findings of the trial court for clear error and conclusions of law de novo.” Humble, 878 F.3d at 483 (alteration in original) (quoting George v. Reliance Standard
Life Ins. Co., 776 F.3d 349, 352 (5th Cir. 2015)). In reviewing de novo an administrator’s ERISA plan interpretation, we apply the same standard as is appropriate for the
district court. Id. “[W]hen an administrator has discretionary authority with respect to the decision at issue, the
standard of review should be one of abuse of discretion.”
Id. (alteration in original) (quoting Vega v. Nat’l Life Ins.
Servs., Inc., 188 F.3d 287, 295 (5th Cir. 1999) (en banc),
overruled on other grounds by Metro. Life Ins. Co. v.
Glenn, 554 U.S. 105, 128 S. Ct. 2343 (2008)).

6
North Cypress does not dispute that Cigna had discretionary authority to determine eligibility for benefits in this case.

8a
“This court reviews a grant of summary judgment de
novo, applying the same standards as the district court.
We therefore affirm the district court’s grant of summary
judgment ‘if, viewing the evidence in the light most favorable to the non-moving party, there is no genuine dispute
[as] to any material fact and the movant is entitled to
judgment as a matter of law.’” LifeCare Mgmt. Servs.
L.L.C. v. Ins. Mgmt. Adm’rs Inc., 703 F.3d 835, 840–41
(5th Cir. 2013) (alteration in original) (citation omitted)
(quoting U.S. ex. rel. Jamison v. McKesson Corp., 649
F.3d 322, 326 (5th Cir. 2011)).
Finally, this court reviews a denial of attorney’s fees
for abuse of discretion, reviewing factual findings for
clear error and legal conclusions de novo. See Humble,
878 F.3d at 488; see also Dean v. Riser, 240 F.3d 505, 507
(5th Cir. 2001).
DISCUSSION
On appeal, North Cypress raises numerous issues,
most of which are connected to the impact of our first appellate decision in this case and intervening case law.
Thus, North Cypress contends the district court violated
the law of the case by not considering the legal correctness of Cigna’s plan interpretation. Second, in contravention of our earlier opinion, the court failed to find that
Cigna had conflicts of interest, lacked good faith, and
abused its discretion in denying claims under the hospital’s Prompt Payment Discount policy. Next, the district
court erred in relying on Connecticut General Life Insurance Co. v. Humble Surgical Hospital, L.L.C., the intervening decision of this court that interpreted the same
language at issue in Cigna’s policy here. Moving on,
North Cypress alleges that futility excused its failure to
exhaust administrative remedies for the vast majority of

9a
benefit claims at issue and that Cigna failed to provide
fair and full review of the challenged benefit claims. Finally, the district court allegedly erred in denying damages and failing to award attorney’s fees to North Cypress.
None of these challenges succeeds. As will be explained, the law of the case did not require the district
court on remand to determine the legal correctness of
Cigna’s policy interpretation, and under Humble, a court
need not reach legal correctness if the insurer’s determination was not an abuse of discretion. Humble also moots
consideration of the conflicts and inferences of bad faith
that North Cypress asserts against Cigna. In evaluating
Cigna’s plan interpretation, the district court correctly
applied this court’s previous decision in the instant controversy as well as Humble. Consequently, North Cypress’s exhaustion argument is moot. Moreover, its procedural challenge to Cigna’s review fails for lack of substantiating evidence, which leaves the damages issue
moot, too. Based on the correctness of the district court’s
rulings, North Cypress can hardly establish that it had
any right to obtain attorney’s fees.
I. Law of the Case
Reviewing Cigna’s disposition of the challenged benefit claims, the district court “skipped the legal correctness analysis” and proceeded to the “functional equivalent of arbitrary and capricious review.” According to
North Cypress, this procedure violated the law of the
case because, in North Cypress I, this court allegedly ordered the trial court on remand to decide whether Cigna’s
plan interpretation was legally correct. In fact, the law of
the case stated no such imperative.

10a
In North Cypress I, Cigna requested that this court
“affirm the grant of summary judgment against North
Cypress’s benefit underpayment claims on the merits.”
781 F.3d at 195. The panel chose instead to “vacate and
remand to allow the district court a full opportunity to
consider all of North Cypress’s claims for underpayment
of benefits and its other closely related ERISA claims
with a fully developed record.” Id. at 197. To explain the
remand, the North Cypress I panel identified “the many
issues Cigna asks us to decide.” Id. at 196. For this reason, the panel stated,
Analysis of Cigna’s plan interpretation proceeds in
two steps. The first question is whether Cigna’s
reading of the plans is “legally correct.” . . . On a
finding that the plans, read correctly, do not condition coverage on collection of coinsurance, the question would be whether Cigna nevertheless had discretion to absolve itself of responsibility for payment of the greater part of thousands of claims. At
this stage of the analysis, the inquiry would include
among other factors, whether Cigna had a conflict
of interest, as well as the “internal consistency of
the plan” and “the factual background of the determination and any inferences of lack of good faith.”
Id. at 195–96 (quoting Threadgill v. Prudential Secs.
Grp., Inc., 145 F.3d 286, 293 (5th Cir. 1998)).
This general statement of the law, expressed in terms
of the facts of the case, is no mandate at all. Nor is it a
statement of the whole law regarding review of ERISA
benefit decisions. The court’s summary omits mention of
Duhon v. Texaco, Inc., 15 F.3d 1302, 1307 n.3 (5th Cir.
1994) and Holland v. International Paper Co. Retirement Plan, 576 F.3d 240, 246 n.2 (5th Cir. 2009) (cited in

11a
North Cypress I, 781 F.3d at 195 n.57), in which this court
established that a party may skip the legal correctness
inquiry and proceed to consider whether the plan administrator abused its discretion, as outlined in North Cypress I. The North Cypress I panel did not deny the authority of Duhon or of Holland (nor could it).
Accordingly, the district court properly relied on Holland, as well as on Humble, 878 F.3d at 483–84, in skipping the legal correctness analysis. In so doing, the court
did not violate the law of the case and committed no error.
II. Conflicts of Interest and Lack of Good Faith
Law of the case aside, North Cypress contends also
that the district court erred in its evaluation of the conflicts of interest and inferences of lack of good faith that
North Cypress raised. Under Humble, however, the
abuse-of-discretion inquiry was obviated by the existence
of prior legal authority supporting Cigna’s interpretation
of identical or nearly identical language concerning insureds’ coinsurance obligations. Humble explained that
“[o]ther courts have held that, where an administrator’s
interpretation is supported by prior case law, it cannot be
an abuse of discretion—even if the interpretation is legally incorrect.” Humble, 878 F.3d at 484. Because, as
North Cypress itself has acknowledged, the circumstances of this case match those in Humble, Cigna’s alleged conflicting interests and lack of good faith are immaterial. 7
7
The district court applied Humble, noting it need not decide the
abuse of discretion factors, but it went on to reject, based on record
evidence, each of North Cypress’s complaints concerning Cigna’s alleged conflicts of interest, internal inconsistency in the plan, and lack
of good faith. We pretermit further discussion of these findings.

12a
If a benefit claimant (or, as here, assignee) challenges
the disposition of a claim, and the court makes no finding
of legal correctness to end the inquiry, then it must ordinarily consider whether the plan administrator’s interpretation was arbitrary and capricious. Humble, 878 F.3d
at 483. The inquiry may generally include reviewing
whether the plan administrator “had a conflict of interest,
as well as the ‘internal consistency of the plan’ and ‘the
factual background of the determination and any inferences of lack of good faith.’” North Cypress I, 781 F.3d at
195–96 (quoting Threadgill, 145 F.3d at 293). Under
Humble, however, it may not be necessary to review
these factors, at least “under the present circumstances,”
where two other courts “effectively or explicitly concluded that the [insurer’s interpretation of the] provision
at issue here was legally correct.” 878 F.3d at 485. 8
For some of the benefit decisions in Humble, one relevant and longstanding prior case, decided in 1991, was
Kennedy v. Connecticut General Life Insurance Co., 924
F.2d 698 (7th Cir. 1991). Id. at 485. The Kennedy court
ruled that Cigna’s interpretation of a “nearly-identical”
provision as imposing a fee forgiveness restriction was legally correct. Kennedy, 924 F.2d at 701. The Humble
court also relied on the district court’s first decision in this
case, which although vacated in North Cypress I, was controlling during most of the period covering Cigna’s dealings with Humble Surgical Hospital and had also ruled
Cigna’s interpretation to be correct. Thus, as in Humble,
so it must be here: this court must adhere to the same
8
The court in Humble cautioned that it did not adopt “a bright-line
rule because even if a legally incorrect interpretation is supported by
prior case law, employing the interpretation could cause a plan administrator to abuse its discretion.” 878 F.3d. at 485.

13a
reasoning and result concerning the same policy language. Cigna’s interpretation, having relevant legal support, could not in these circumstances be an abuse of discretion.
III. Applying Humble
To avoid the dispositive effect of Humble, North Cypress proposes four critiques: Humble contradicts North
Cypress I and lacks authority; Kennedy, on which Humble relied, is inapplicable to this case; Cigna did not rely
on Kennedy in this case; and various facts render Humble
distinguishable. These are meritless.
First, it is simply incorrect to claim that “Humble
came to a different conclusion than did N. Cypress finding
that Cigna’s Exclusion interpretation is ‘legally correct.’”
Humble came to no such conclusion. Instead, the court
“skip[ped]” consideration of the issue because “even if
[Cigna’s] construction of the plans’ exclusionary language
was legally incorrect, its interpretation still fell within its
broad discretion.” Humble, 878 F.3d at 484. Moreover,
North Cypress I made no final determination about the
legal correctness of Cigna’s interpretation, as it merely
“suggested (without deciding) that this reading might be
legally incorrect.” 9 Id. Humble remains binding.

9
It stated that “[t]here are strong arguments” for that conclusion,
declined to rule for Cigna on the merits of North Cypress’s ERISA
claims, and vacated the district court’s summary judgment on North
Cypress’s state contract law claims, in which the district court had
determined that Cigna’s interpretation was legally correct. In vacating that holding, the panel characterized it as “filtered through state
contract law and based on a much smaller universe of claims” than
would be a final decision on the ERISA claims. 781 F.3d at 196–97.

14a
North Cypress contends that here, unlike in Kennedy, North Cypress left patients legally responsible for
co-payments. True or not, that contention is irrelevant for
present purposes. Humble relied on Kennedy, not to determine whether patients actually were responsible for
co-payments, but rather to determine whether Cigna reasonably required that patients be legally responsible for
co-payments. Humble, 878 F.3d at 484–85. As North Cypress admits, the relevant interpretation in this case is
the same as the interpretation in Humble. Kennedy was
reasonably invoked in Humble in determining whether
Cigna’s interpretation was an abuse of discretion, and it
is reasonably applicable here.
North Cypress counters that, even if Kennedy applies
to this case, Cigna did not rely on Kennedy. Indeed, a series of “facts here not present in Humble” 10 constitute
Cigna’s alleged conflicts of interest and lack of good faith.
As previously explained, however, they are immaterial.

10
North Cypress alleges that (1) Cigna mobilized a team to pressure
North Cypress to join its provider network, (2) this team invented an
approach that involved making reduced payment, if any, to North Cypress and convincing plan sponsors to reduce reimbursement of
North Cypress, (3) Cigna created the Protocol “exclusively for North
Cypress, not relying on Kennedy,” (4) Cigna repeatedly stated a goal
to force North Cypress to the negotiating table to enter an in-network
contract, (5) North Cypress reversed its Prompt Pay Discount and
billed thousands of patients the full amount of their out-of-network
responsibility after the patients failed to pay timely, (6) North Cypress did not commit fraud or provide “kickbacks,” and (7) “Cigna
used North Cypress as a pretext to plan sponsors for payments based
on billed charges from 2007-12 to make millions in additional ‘contingency fees.’”

15a
Finally, North Cypress does not adequately brief a
challenge to the existence of substantial evidence supporting Cigna’s decisions. 11 Even if a plan interpretation
is not an abuse of discretion, particular benefit decisions
must be supported by substantial evidence. Humble, 878
F.3d at 485. With this failure, no grounds remain on which
to find that Cigna abused its discretion. North Cypress’s
ERISA § 502 claims fail.
IV. Remaining Issues
North Cypress also raised the alleged “futility” of exhausting Cigna’s appeal process for denied claims, but
this process claim is moot because the administrator’s decisions were no abuses of discretion. North Cypress’s
other process argument on appeal—against summary
In this case, the district court ruled that substantial evidence supported Cigna’s conclusion. North Cypress, in its initial brief, notes as
a fact in its “Statement of the Case,” that “only the original 27 ‘modest’ surveys were Cigna’s foundation to adjudicate 9,921 North Cypress claims as ‘fee-forgiving’ on a patient responsibility of $100.”
Also, North Cypress (erroneously) faults the district court for failing
to consider whether Cigna had substantial evidence for its decision,
and, in the course of arguing about the district court’s damages rulings, it notes that the district court’s ruling “rel[ied] on . . . the erroneous finding of ‘substantial evidence’ to support Cigna’s actions.” At
no point in its initial brief, however, does North Cypress provide an
argument against the district court’s finding of substantial evidence.
11

An argument not included in a statement of issues nor addressed
in the body of the brief must be deemed waived. United States v.
Thames, 214 F.3d 608, 612 (5th Cir. 2000). North Cypress could not
undo this waiver by raising the issue in its reply brief. Depree v. Saunders, 588 F.3d 282, 290 (5th Cir. 2009) (“This court will not consider a
claim raised for the first time in a reply brief.”). Thus, North Cypress
waived the issue of whether Cigna had substantial evidence for its decision, and the district court’s finding of substantial evidence stands
undisputed.

16a
dismissal of its ERISA § 503 claims for the absence of a
“full and fair hearing” of benefit appeals—fails to establish any error of law or genuine dispute of material fact
marring the district court’s summary judgment. North
Cypress additionally persists in asserting some right to
receive damages and attorney’s fees. Zero damages is,
however, the only appropriate measure for zero substantive success in proving the hospital’s case. As for attorney’s fees, the fact that North Cypress achieved temporary but fleeting success in reversing the district court’s
initial legal conclusions is necessary but not sufficient for
an award where its claims were later totally rejected after
trial. See Hardt v. Reliance Standard Life Ins. Co., 560
U.S. 242, 255, 130 S. Ct. 2149, 2158 (2010).
CONCLUSION
For the foregoing reasons, the district court’s judgment is AFFIRMED.

17a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
CIVIL ACTION NO. 4:09-CV-2556
NORTH CYPRESS MEDICAL CENTER
OPERATING CO., LTD., et al.,
Plaintiffs,
v.
CIGNA HEALTHCARE, et al.,
Defendants.
Filed: September 28, 2016
MEMORANDUM AND ORDER
Before KEITH P. ELLISON, United States District
Judge.
Pending before the Court are the parties’ Motions for
Summary Judgment (Doc. Nos. 443, 447, and 489). After
considering the Motions, the responses thereto, and all
applicable law, the Court determines that each Motion
should be granted in part and denied in part.
I.

BACKGROUND

This case arises out of a dispute over the obligation of
an insurer (Defendants, hereinafter “Cigna”) to pay a
hospital (Plaintiffs, hereinafter “North Cypress”) for

18a
medical services provided to insured patients. The facts
of the case are familiar to the parties and need not be recited here in full. The central issue remaining in the case
is Cigna’s interpretation of plan language stating that
“payment for the following is specifically excluded: . . .
charges for which you [patients] are not obligated to pay
or for which you are not billed.” N. Cypress Med. Ctr. Operating Co., Ltd. v. Cigna Healthcare, 781 F.3d 182, 187
(5th Cir. 2015). Cigna interpreted this language to mean
that patients had no insurance coverage for medical procedures for which the patient was not billed. Id. at 189.
Accordingly, Cigna implemented a Fee-Forgiving Protocol under which it drastically reduced its payment of
claims to North Cypress (typically paying $0 or $100)
where Cigna believed that North Cypress had waived or
reduced patient contribution. Id. Remaining in the case
are North Cypress’s claims under the Employee Retirement Income Security Act (“ERISA”) and for breach of
contract.
This Court granted summary judgment to Cigna on
North Cypress’s ERISA and breach of contract claims.
(Doc. Nos. 318, 326, 331). On March 10, 2015, the Fifth
Circuit vacated the grants of summary judgment with regard to those claims and remanded for further proceedings. N. Cypress, 781 F.3d 182. North Cypress and Cigna
each subsequently filed Motions for Summary Judgment.
(Doc. Nos. 443, 447).
On June 1, 2016, the United States District Court for
the Southern District of Texas issued a ruling in a separate case to which Cigna is a party, Connecticut General
Life Insurance Co., et al. v. Humble Surgical Hosp.,
LLC, C.A. No. 4:13-cv-3291, 2016 WL 3077405 (S.D. Tex.

19a
Jun. 1, 2016) (hereinafter “Humble”). North Cypress argues in a second Motion for Summary Judgment that the
Humble decision binds this case under the doctrines of
res judicata and collateral estoppel. (Doc. No. 489.)
At issue in the pending Motions for Summary Judgment are: (1) the preclusive effect, if any of the Humble
decision; (2) North Cypress’s claims under ERISA §§
502(a)(1)(B), 502(a)(3), 503, and 502(c)(1)(B); and (3)
Cigna’s affirmative defense of recoupment. N. Cypress,
781 F.3d at 195; Doc. Nos. 489, 492, 496, 501.
II.

LEGAL STANDARDS
A. Summary Judgment

Summary judgment is proper when there is no genuine dispute as to any material fact and the moving party
is entitled to judgment as a matter of law. Fed. R. Civ. P.
56(a). A genuine issue of material fact exists if a reasonable jury could enter a verdict for the non-moving party.
Crawford v. Formosa Plastics Corp., 234 F.3d 899, 902
(5th Cir. 2000). The court can consider any evidence in
“the pleadings, depositions, answers to interrogatories,
and admissions on file, together with the affidavits, if
any.” Celotex Corp. v. Catrett, 477 U.S. 317, 322 (1986).
The Court must view all evidence in the light most favorable to the non-moving party and draw all reasonable inferences in that party’s favor. Crawford, 234 F.3d at 902.
The party moving for summary judgment bears the
burden of demonstrating the absence of a genuine dispute of material fact. Kee v. City of Rowlett, 247 F.3d 206,
210 (5th Cir. 2001). If the moving party meets this burden, the non-moving party must go beyond the pleadings
to find specific facts showing that a genuine issue of material fact exists for trial. Little v. Liquid Air Corp., 37

20a
F.3d 1069, 1075 (5th Cir. 1994). Summary judgment is appropriate if a party “fails to make a showing sufficient to
establish the existence of an element essential to that
party’s case.” Celotex, 477 U.S. at 322.
B. Res judicata and collateral estoppel
“Claim preclusion, or res judicata, bars the litigation
of claims that either have been litigated or should have
been raised in an earlier suit.” Matter of Swate, 99 F.3d
1282, 1286 (5th Cir. 1996) (citing Super Van Inc. v. San
Antonio, 92 F.3d 366, 370 (5th Cir. 1996)). Res judicata
applies where: “(1) The parties are identical or in privity;
(2) the judgment in the prior action was rendered by a
court of competent jurisdiction; (3) the prior action was
concluded to a final judgment on the merits; and (4) the
same claim or cause of action was involved in both actions.” Id. at 1286.
Collateral estoppel, or issue preclusion, prevents a
party from litigating an issue already raised in an earlier
action if: (1) the issue at stake is identical to the one involved in the earlier action; (2) the issue was actually litigated in the prior action; and (3) the determination of the
issue in the prior action was a necessary part of the judgment in that action. Petro–Hunt, L.L.C. v. United States,
365 F.3d 385, 397 (5th Cir. 2004) (footnotes omitted) (citation omitted). Issue preclusion may apply even if the
claims and the subject matter of the suits differ. Next
Level Commc’ns LP v. DSC Commc’ns Corp., 179 F.3d
244, 250 (5th Cir. 1999) (citation omitted). In addition,
“[u]nlike claim preclusion, the doctrine of issue preclusion
may not always require complete identity of the parties.”
Id. (citation omitted) (internal quotation marks omitted).
But “[w]hile complete identity of all parties is not required, the party against whom the collateral estoppel

21a
would be applied generally must either have been a party,
or privy to a party, in the prior litigation.” Vines v. Univ.
of La. at Monroe, 398 F.3d 700, 705 (5th Cir. 2005) (citing
Terrell v. DeConna, 877 F.2d 1267, 1270 (5th Cir. 1989)).
III.

ANALYSIS
A. North Cypress’s ERISA § 502(a)(1)(B) claim
i.

Legal standard

A benefits plan participant may bring a civil action under ERISA § 502(a)(1)(B) “to recover benefits due him
under the terms of the plan, to enforce his rights under
the terms of the plan, or to clarify his rights to future benefits under the plan.” 29 U.S.C. § 1132(a)(1)(B).
Healthcare providers may bring ERISA suits standing in
the shoes of their patients. N. Cypress, 781 F.3d at 191.
In this case, the Fifth Circuit found that the patients assigned their rights under their insurance contracts to
North Cypress, and that North Cypress has standing under ERISA to enforce the contracts. Id. at 191-95.
Where a benefits plan gives the administrator or fiduciary discretionary authority to determine eligibility for
benefits or construe the terms of the plan, the administrator’s interpretation of the plan is reviewed under an
abuse of discretion standard. Anderson v. Cytec Indus.,
619 F.3d 505, 512 (5th Cir. 2010). First, the court asks
whether the interpretation is “legally correct.” Id. The
most important factor at this stage is whether the contested interpretation is consistent with a fair reading of
the plan. Gosselink v. Am. Tel. & Tel., 272 F.3d 722, 727
(5th Cir. 2001). Because ERISA requires that plan descriptions be written in a manner calculated to be understood by the average plan participant, the court must as-

22a
sess whether the administrator’s interpretation is consistent with the plan language in its “ordinary and popular sense.” 29 U.S.C. § 1022(a); Stone v. UNOCAL Termination Allowance Plan, 570 F.3d 252, 260 (5th Cir. 2009).
Additional factors in determining whether an administrator’s interpretation is legally correct include whether the
administrator has given the plan a uniform construction
and whether there are any unanticipated costs resulting
from different interpretations of the plan. Crowell, 541
F.3d at 312.
If the determination was not legally correct, the court
proceeds to the second question: whether the interpretation was an abuse of discretion. Id. Factors at this stage
include, but are not limited to: whether the plan administrator had a conflict of interest, the internal consistency
of the plan, the factual background of the determination,
and any inferences of lack of good faith. N. Cypress, 781
F.3d at 196.
If the determination was legally correct or within
Cigna’s discretion, the final inquiry is whether the decision to deny benefits was supported by substantial evidence. Id. Substantial evidence is “more than a scintilla,
less than a preponderance, and [ ] such relevant evidence
as a reasonable mind might accept as adequate to support
a conclusion.” Ellis v. Liberty Life Assurance Co. of Boston, 394 F.3d 262, 273 (5th Cir. 2004).
ERISA claimants are required to exhaust administrative remedies prior to filing a lawsuit. Denton v. First
Nat’l Bank of Waco, 765 F.2d 1295, 1301 (5th Cir. 1985);
see also Hall v. Nat’l Gypsum Co., 105 F.3d 225, 231 (5th
Cir. 1997) (the exhaustion requirement “is not one specifically required by ERISA, but has been uniformly imposed by the courts in keeping with Congress’s intent in

23a
enacting ERISA”). The exhaustion requirement operates
as an affirmative defense rather than a jurisdictional bar.
Crowell v. Shell Oil Co., 541 F.3d 295, 308 (5th Cir. 2008).
“Exhaustion is to be excused only in the most exceptional
circumstances.” Davis v. AIG Life Ins. Co., No. 95-60664,
1996 WL 255215, at *2 (5th Cir. Apr. 26, 1996) (citing
Commc’ns Workers of Am. v. AT&T, 40 F.3d 426, 433
(D.C. Cir. 1994)). A claimant is excused from demonstrating exhaustion if she can show that pursuit of administrative remedies would have been futile. Bourgeois v. Pension Plan for Employees of Santa Fe Int’l Corps., 215
F.3d 475, 479 (5th Cir. 2000). To qualify for the futility exception to the exhaustion requirement, the claimant must
show a “certainty of an adverse decision.” Id. (citing
Commc’ns Workers of Am., 40 F.3d at 433) (emphasis in
original). The claimant is also required to show hostility
or bias on the part of the administrative review committee. McGowin v. ManPower Int’l, Inc., 363 F.3d 556, 559
(5th Cir. 2004). In addition to the futility exception, exhaustion is also excused when a plan administrator fails
to establish or follow claims procedures consistent with
the requirements of ERISA. 29 C.F.R. § 2560.503-1(l). In
that case, the claimant is deemed to have exhausted administrative remedies and is entitled to pursue any available remedies under ERISA § 502(a). Id.
ii.

Effect on Humble on North Cypress’s
§ 502(a)(1)(B) claim

The Humble decision arises out of the same plan language and interpretation that are at issue here. In each
case, the service provider waived or reduced the patient
contribution for particular medical services while still
billing Cigna for Cigna’s portion. Cigna then refused to
pay all or part of its obligation to the service provider,

24a
based on Cigna’s interpretation of the exclusionary language in its plans. Under Cigna’s interpretation, if the
member/patient was not obligated to pay all or part of the
patient contribution for a particular medical service, then
that service was not covered. Humble, 2016 WL 3077405,
at *6. Therefore, according to Cigna, Cigna was not obligated to make a full payment to the service provider if the
service provider waived or reduced the patient contribution. Id. In the Humble litigation, Cigna sued Humble to
recover alleged overpayments for services rendered to
members/patients. Id. at *1. Humble asserted counterclaims against Cigna for, inter alia, nonpayment and underpayment of claims in violation of ERISA §
502(a)(1)(B). Id. at *2.
In the first stage of its ERISA analysis, the Court
found that Cigna’s interpretation of the exclusionary plan
language was legally incorrect. Id. at *17-18. That is, the
average plan participant would not interpret the plan language to mean that Cigna was relieved of its obligation to
pay based on a waived or reduced patient contribution.
Id. In the second stage of the ERISA analysis, the Court
found that Cigna abused its discretion by “obstinately
denying Humble’s claims for benefits in spite of the medical services provided.” Id. at *17. The Court highlighted
the fact that Cigna “admittedly has never used the exclusionary language to reject covered services before and
was relentless in engaging in an arbitrary manner with
regard to Humble and its claims.” Id. at *18. The issue
presented in Plaintiffs’ Motion for Summary Judgment
(Doc. No. 489) is whether the decision in Humble has preclusive effect in this case.
Res judicata, or claim preclusion, applies only where
the parties are identical or in privity. Matter of Swate, 99

25a
F.3d at 1286. Although Cigna is a party to both cases at
issue here, the remaining parties, North Cypress and
Humble, are not identical. Therefore, res judicata applies
only if the two hospitals are in privity. North Cypress argues that they are in privity because they have identical
interests, pointing to various factual similarities between
Cigna’s treatment of North Cypress and Humble. (Doc.
No. 496 at 23-24.) However, this argument mischaracterizes the requirements for privity. As a general matter,
privity exists in the following circumstances: (1) a nonparty who has succeeded to a party’s interest in property
is bound by any prior judgments against that party, (2) a
nonparty who controlled the original suit will be bound by
the resulting judgment, and (3) a nonparty whose interests were represented adequately by a party in the original suit. Freeman v. Lester Coggins Trucking, Inc., 771
F.2d 860, 864 (5th Cir. 1985). The first two circumstances
clearly do not apply to this case. With regard to adequate
representation, it is not enough for the parties to have
parallel interests. Id. Rather, virtual representation “demands the existence of an express or implied legal relationship in which parties to the first suit are accountable
to nonparties who file a subsequent suit raising identical
issues.” Pollard v. Cockrell, 578 F.2d 1002, 1008 (5th Cir.
1978). Because North Cypress and Humble have no such
express or implied legal relationship, they are not in privity. Therefore, res judicata does not apply.
Unlike res judicata, collateral estoppel does not require complete identity of the parties. Next Level
Comm’cns LP v. DSC Commc’ns Corp., 179 F.3d 244, 250
(5th Cir. 1999). Therefore, collateral estoppel may apply
to certain issues in this case even though North Cypress
and Humble are not in privity. North Cypress argues that

26a
the holding in Humble has preclusive effect with regard
to both steps of the ERISA § 502(a)(1)(B) analysis:
whether Cigna’s interpretation was legally correct and
whether it was an abuse of discretion.
Collateral estoppel applies to the issue of whether
Cigna’s plan interpretation was legally correct. The issue
was actually litigated in Humble, and the determination
of the issue was a necessary part of the judgment on
Humble’s ERISA § 502(a)(1)(B) counterclaims. Humble,
2016 WL 3077405, at *17-18. Moreover, the issue in this
case is identical to the issue in Humble. The exclusionary
language in the cases was identical, and in both cases,
Cigna interpreted the language to mean that if a patient
had no obligation to pay, Cigna was also excused from
paying. The legal correctness analysis is based on
whether the contested interpretation is consistent with
how the average plan participant would interpret the language. Stone v. UNOCAL Termination Allowance Plan,
570 F.3d 252, 260 (5th Cir. 2009). Therefore, the only relevant facts are the language of the plan and Cigna’s interpretation. The factual differences that Cigna raises to
challenge collateral estoppel—billing and disclosure
practices, time periods, suspected billing policies, evidence, responses from each hospital, and the lack of overlap in individual claims—are irrelevant to the issue of
whether Cigna’s interpretation of the plan was legally
correct. See Doc. No. 492 at 4-5. Because the Humble decision has preclusive effect on the issue of legal correctness, this Court holds that Cigna’s interpretation of the
plan language was legally incorrect. 1

The Court is not persuaded by Cigna’s argument that prior inconsistent judgments make collateral estoppel inappropriate in this case.
1

27a
Collateral estoppel does not, however, apply to the issue of abuse of discretion. Compared to the analysis of
legal correctness, abuse of discretion is more fact-specific, taking into account factors such as conflict of interest, internal consistency of the plan, the factual background of the determination, and any inferences of lack
of good faith. See N. Cypress, 781 F.3d at 196. The holdings in Humble on abuse of discretion thus turn on facts
specific to the relationship between the parties in that
case. Therefore, despite many factual similarities between the two cases, the issue—whether Cigna abused its
discretion in its interpretation of the plan—is not precisely the same. Because the issues in the cases are
merely analogous, not identical, collateral estoppel does
not apply. See NLRB v. W.L. Rives Co., 328 F.2d 464, 468
n.5 (5th Cir. 1964).
iii.

Abuse of discretion under ERISA
§ 502(a)(1)(B)

In order to determine whether Cigna abused its discretion in interpreting its plan language, the Court must
evaluate whether Cigna had a conflict of interest, the internal consistency of the plan, the factual background of
the determination, and any inferences of lack of good
faith. See N. Cypress, 781 F.3d at 196. After considering
these factors, the Court finds that Cigna abused its discretion.

See Doc. No. 492 at 6-9. The Humble decision addresses precisely the
issue in this case: the legal correctness of Cigna’s interpretation of
the same exclusionary plan language. By contrast, the cases Cigna
has cited, all of which come from other circuits, concern analogous
factual scenarios rather than the same issue.

28a
Although Cigna did not directly fund most of the plans
at issue, 2 North Cypress claims that there was a conflict
of interest because Cigna collected contingency fees
when it reduced payments to North Cypress. (Doc. No.
443 at 7-10.) As part of its various cost containment programs, Cigna collects a [redacted text] contingency fee of
any savings Cigna provides to plan sponsors. 3 Id. If Cigna
collected contingency fees for North Cypress claims subject to the Fee-Forgiving Protocol (which targeted North
Cypress’s practice of reducing patient contribution for
particular services), then there was a conflict of interest.
See Humble, 2016 WL 3077405, at *16 (finding a conflict
of interest where “Cigna evaluates the claim for benefits,
pays benefits and reimburses itself, based on what it
‘saved’ the plan sponsors”); see also Metro. Life Ins. Co.
v. Glenn, 554 U.S. 105, 112 (2008) (finding that a conflict
of interest exists where “a plan administrator both evaluates claims for benefits and pays benefits claims”).
Cigna does not dispute that it collected contingency
fees for North Cypress claims under its cost containment
programs. What is in dispute is whether Cigna collected
contingency fees for the particular North Cypress claims
at issue in this case, those subject to the Fee-Forgiving
Protocol. Cigna representative Wendy Sherry testified in
a Rule 30(b)(6) deposition on November 10, 2015 that
The majority of the claims at issue are part of “Administrative Services Only” (ASO) plans. N. Cypress, 781 F.3d at 187. ASOs are
funded by plan sponsors (typically employers), with Cigna acting only
as the plan administrator. Id.
2

3
Cigna generates Savings by routing claims to third-party vendors.
(Doc. No. 461 at 14 n.8.) If the vendor can resolve the claim with the
provider for less than what the plan would have paid, then the plan
pays fees to the vendor and Cigna. Id.

29a
Cigna has discretion about whether to apply cost containment programs to particular claims. (Doc. No. 444-4 at
27-28.) She further testified that fees collected from
North Cypress accounts went to Cigna’s bottom line. Id.
at 29. North Cypress alleges that Cigna earned [redacted
text] contingency fees from North Cypress claims in the
relevant time period, citing a “Summary Spreadsheet”
from Cigna. (Doc. No. 443 at 7.) 4 Cigna, however, asserts
that these contingency fees came from claims that were
not subject to the Fee-Forgiving Protocol and therefore
are not at issue in this case. (Doc. No. 461 at 5.) Cigna
states that in fact it took active steps to reduce potential
bias by removing North Cypress claims from its cost containment programs wherever possible. See Doc. No. 461
at 14-15; Doc. No. 447 at 24; see also Hagen v. Aetna Ins.
Co., 808 F.3d 1022, 1027 (5th Cir. 2015) (conflicts of interest are less important “where the administrator has
taken active steps to reduce potential bias and promote
accuracy”) (citing Glenn, 554 U.S. at 116-17). Finally,
Cigna cites Ms. Sherry’s 2011 Rule 30(b)(6) deposition
testimony, in which Ms. Sherry states that Cigna did not
receive any part of the reductions or savings that resulted
from the Protocol. (Doc. No. 447-1 at 7.) Given the ambiguity in the record as to whether Cigna collected a [redacted text] contingency fee on North Cypress claims
subject to the Fee-Forgiving Protocol, the evidence on
4
North Cypress also purports to cite the Rule 30(b)(6) deposition of
Wendy Sherry as an admission that some of Cigna’s Savings resulted
from claims under the Fee-Forgiving Protocol which targeted North
Cypress. (Doc. No. 443 at 7, Doc. No. 466 at 13.) However, the document cited is the deposition of Mary Ellen Cisar, a different Cigna
representative. Moreover, Ms. Cisar makes no such admission; her
testimony is only that Cigna is capable of calculating the percent of
savings attributable to North Cypress. (Doc. No. 271-2 at 43.)

30a
conflict of interest is not conclusive. Because there is a
genuine fact dispute regarding conflict of interest, the
Court disregards this factor for purposes of summary
judgment.
In analyzing the internal consistency factor, the Court
must determine whether Cigna’s interpretation of the
plan language conflicts with any other part of the plan.
See Hollis v. Lubrizol Corp. Long Term Disability Plan,
Civil Action No. 4:06-cv-3691, 2008 WL 7950030, at *5
(S.D. Tex. Feb. 14, 2008). North Cypress has not presented any evidence that it does. Instead, North Cypress
argues that the plan language does not specifically authorize or require Cigna’s interpretation. (Doc. No. 443 at
14-15, Doc. No. 466 at 11-12, Doc. No. 457 at 29-30.) The
lack of specific authorizing language, however, does not
make the plan language inconsistent. Second, North Cypress argues that Cigna interpreted the plan language inconsistently across customers. (Doc. No. 457 at 29.) This
argument, however, does not go to internal inconsistency, that is, conflict between Cigna’s interpretation
of the plan and the plan language. Finally, North Cypress
argues that Cigna’s interpretation is inconsistent with the
following plan language: “the provider may bill you for
the difference between the provider’s normal charge and
the maximum reimbursable charge, in addition to applicable deductibles, co-payments and co-insurance.” (Doc.
No. 466 at 11.) According to this argument, Cigna’s interpretation converts the “may” language to “shall” language. Id. In other words, whereas the plan language
seems to allow latitude for the provider to charge some
amount in patient contribution or not, the interpretation
requires the provider to charge it. This argument, however, extrapolates too much from the plan language;

31a
there is no clear inconsistency between the two statements. Because North Cypress fails to produce evidence
of internal inconsistency, this factor weighs in Cigna’s favor.
The next factor is the factual background of the determination and any inference of lack of good faith. Cigna
claims that it acted in good faith to try to curtail North
Cypress’s fee-forgiving practices, relying on Kennedy v.
Connecticut General Life Ins. Co., 924 F.2d 698 (7th Cir.
1991). (Doc. Nos. 461 at 12-13, 473 at 8-9). In Kennedy,
Judge Easterbrook highlighted the benefits of requiring
patients to pay for part of their medical care, even when
insured: “Co-payments sensitize employees to the cost of
health care, leading them not only to use less but also to
seek out providers with lower fees. The combination of
less use and lower charges . . . makes medical insurance
less expensive and enables employers to furnish broader
coverage (or to pay higher wages coupled with the same
level of coverage).” 924 F.2d at 699. Accordingly, the Seventh Circuit found that Cigna was entitled to withhold
payment where a healthcare provider had intentionally
collected its entire fee from Cigna by waiving patient contribution. Id.
However, there is a great deal of evidence that
Cigna’s primary motivation was not to root out fee forgiveness, but instead to pressure North Cypress into negotiating an in-network contract. Prior to North Cypress’s 2007 opening, North Cypress and Cigna negotiated for an in-network contract but were unsuccessful. N.
Cypress, 781 F.3d at 188. On October 24, 2007, a director
of client management at Cigna expressed a great deal of
interest upon learning that North Cypress had terminated its contract with another insurance company:

32a
“Very interesting. So they won’t have a contract with anybody. They must be fat and happy—for now.” (Doc. No.
267-4 at 11.) By July 2008, Cigna had developed an action
plan for northwest Houston that specifically targeted
North Cypress Medical Center. (Doc. Nos. 267-6 at 17,
267-7 at 2.) That plan included the Fee-Forgiving Protocol. Id. Cigna’s medical director Dr. James Nadler wrote
in an email about the Fee-Forgiving Protocol, “Recommended reduction in payment ASAP. Goal is to bring hospital to the table.” Id. The file attached to Dr. Nadler’s
email states that the goal of the action plan is to “bring
the desirable providers into the network at market
rates.” (Doc. No. 267-6 at 33.) A week later, Dr. Nadler
wrote in another email, “[W]e should be implementing
[the Fee-Forgiving Protocol] surgically on facilities with
aggressive fee forgiving practices with hopes that we’ll
drive a contract discussion or stop the behavior.” (Doc.
No. 267-7 at 10.) In an August 6, 2008 email, in response
to a question about reasons North Cypress may have to
negotiate an in-network contract, another Cigna employee wrote, “our non-payment will hit them hardest.”
(Doc. No. 270-1 at 3.) By November 12, 2008, Cigna saw
signs that its plan was working. Albert Ramirez wrote to
Dr. Nadler and others, “FYI—Perhaps the SIU fee-forgiving letter has already had an impact. [Another Cigna
employee] tells me the hospital CEO has already sent
word (through CIGNA account management for CyFair
ISD) of negotiating a possible Cigna contract.” Id. at 7879. Cigna employees contemplated delaying the negotiation of the contract because they were “enjoying” North
Cypress’s response. Id. at 109. Subsequent emails by
Cigna employees reinforce the idea that Cigna’s goal was
to pressure North Cypress to negotiate an in-network

33a
contract. See Id. at 85, Doc. No. 270-2 at 91. These statements from Cigna employees suggest that Cigna’s true
motivation for the Fee-Forgiving Protocol was to negotiate an in-network contract, not to prevent harmful externalities in the insurance market. Cigna’s arguments in response—that it paid North Cypress’s claims for two
years prior to the Fee-Forgiving Protocol and that North
Cypress did not always deal in good faith—do not overcome that showing. Therefore, this factor weighs heavily
in favor of North Cypress, since there are strong inferences that Cigna did not act in good faith.
Based on the evidence on the record, the Court finds
that Cigna abused its discretion. Although there is no undisputed evidence of a conflict of interest or a lack of internal consistency, there is strong evidence in the record
that Cigna acted in bad faith. Cigna claims to have been
concerned about eradicating fee forgiveness, relying on a
Seventh Circuit decision from 1991. In fact, the evidence
suggests that Cigna deliberately targeted North Cypress
with its Fee-Forgiving Protocol in order to pressure it to
negotiate an in-network contract. Given the strong evidence of bad faith, the Court finds that Cigna abused its
discretion in violation of ERISA § 502(a)(1)(B). As a result, there is no need to reach the question of whether
Cigna’s actions were based on substantial evidence.

34a
iv.

Exhaustion of administrative remedies 5

In order to pursue a claim under ERISA §
502(a)(1)(B), a plaintiff must either exhaust administrative remedies or show that pursuit of administrative remedies would have been futile. North Cypress does not dispute that it failed to exhaust administrative remedies for
the vast majority of the benefit claims at issue prior to
filing this suit. Instead, North Cypress argues that any
attempt to pursue administrative remedies would have
been futile.
North Cypress’s futility argument fails because
North Cypress cannot show a “certainty of an adverse
decision” on appeal. Bourgeois v. Pension Plan for Employees of Santa Fe Int’l Corps., 215 F.3d 475, 479 (5th
Cir. 2000) (citing Commc’ns Workers of Am., 40 F.3d at
433) (emphasis in original). In fact, of the 24 appeals presented in the cross-motions for summary judgment, three
were completely reversed on appeal. (Doc. Nos. 278-1,
462-9, 462-10.) That is, although Cigna initially paid
North Cypress only the sum calculated under the FeeThe administrative exhaustion issue is not precluded by the decision
in Humble. In that case, the court deemed the hospital’s claims exhausted because of Cigna’s failure to follow claims procedures, citing
29 C.F.R. § 2560.503-1(1). Humble, 2016 WL 3077405, at *2 n.1. The
court did not elaborate on the particular acts or omissions of Cigna
that triggered the application of § 2560.503-1(1). But regardless of
what the court meant by Cigna’s failure to follow claims procedures,
collateral estoppel does not apply because the application of §
2560.503-1(1) is a fact-specific inquiry. The fact that Cigna failed to
follow claims procedures with regard to Humble Surgical Hospital
does not automatically mean that Cigna failed to follow claims procedures with regard to North Cypress Medical Center. Therefore, even
if Cigna’s behavior in this case is very similar to its behavior in the
Humble case, collateral estoppel is not appropriate.

5

35a
Forgiving Protocol, on appeal, Cigna paid the full requested amount. Three more benefit claims were partially reversed on appeal. (Doc. Nos. 462-11; 278-1 at 1213, 71-73.) North Cypress argues that the sweeping nature of the Fee-Forgiving Protocol made reversal on appeal unlikely. But no matter how unlikely administrative
relief appeared ex ante, the record shows that Cigna was
willing to grant it in some cases. As such, despite the considerable evidence of Cigna’s hostility and bias toward
North Cypress, North Cypress cannot show that appeal
would have been futile. Therefore, summary judgment is
granted to Cigna for all claims for which North Cypress
did not exhaust administrative remedies.
v.

Lack of proper assignment

North Cypress is unable to produce written assignments of benefits for some number of its benefits claims. 6
North Cypress alleges that the written assignments for
those claims were “misplaced or lost.” (Doc. No. 443-12.)
In lieu of written assignment forms, North Cypress attempts to prove assignment via the affidavit of Glenda
Tankersley, the Business Office Director at North Cypress. Id. Ms. Tankersley alleges that each person who
receives goods and services at North Cypress must sign

6
The parties disagree about the exact number of claims lacking a
proper assignment. Cigna asserts that 191 claims fall into this category. (Doc. No. 473 at 14.) North Cypress asserts that only 184 claims
do. (Doc. No. 466 at 19-20.) The seven in dispute were obtained and
scanned into North Cypress’s Meditech System but could not be retrieved. Id. North Cypress has provided screenshots from the Meditech System evidencing those assignments. Id.

36a
a Consent and Assignment, which is reflected on the electronic UB-04 claims form that North Cypress generates.
Id.
North Cypress argues that Cigna has waived this issue because Cigna failed to raise lack of proper assignment in its denial of claims forms. North Cypress cites
only New York state law in support of this proposition,
and the Court does not know of any Fifth Circuit law
holding the same. Therefore, the Court finds that Cigna
has not waived the issue of lack of proper assignment.
Because North Cypress’s ERISA standing is based
on the assignment of benefits, it is crucial that North Cypress prove assignment for each claim. However, Cigna
cannot point to any Fifth Circuit law stating that individual written assignments are the only acceptable proof.
Courts in other circuits have found affidavits or other evidence besides written assignment forms sufficient to
prove assignment in certain circumstances. See Conn.
State Dental Ass’n v. Anthem Health Plans, Inc., 591
F.3d 1337, 1351 (11th Cir. 2009) (affidavit was sufficient
evidence of assignment under a preponderance of the evidence standard); Am. Medical Ass’n v. United
HealthCare Corp., No. 00 Civ. 2800 (LMM), 2007 WL
1771498, at *17 (S.D.N.Y. Jun. 18, 2007).
The Court also rejects Cigna’s claim that North Cypress has provided no evidence with regard to assignment. On a summary judgment motion, an arguably selfserving affidavit such as Ms. Tankerley’s suffices to create a fact issue when it is based on personal knowledge
and sets forth facts that would be admissible in evidence.
Dallas/Fort Worth Int’l Airport Bd. v. INet Airport Sys.,
Inc., 819 F.3d 245, 253 n.14 (5th Cir. 2016); C.R. Pittman

37a
Constr. Co., Inc. v. Nat’l Fire Ins. Co. of Hartford, 453 F.
App’x 439, 443 (5th Cir. 2011).
As such, this issue boils down to a genuine dispute of
material fact: whether or not the patients in the claims at
issue actually assigned their benefits to North Cypress.
North Cypress has put forth evidence that they did, and
Cigna disputes the sufficiency of that evidence. Because
this fact is in dispute, summary judgment for either side
on this issue would be inappropriate and is therefore denied.
vi.

MRC-2 claims

There is also a genuine dispute of material fact regarding Cigna’s liability for MRC-2 7 claims. The parties
do not dispute that the Fee-Forgiving Protocol was applied to MRC-1 claims, which are paid based on North
Cypress’s billed charges for particular medical services.
See Doc. No. 443 at viii. By contrast, MRC-2 claims are
paid based on a percentage of Medicare charges. Id.
Cigna asserts that the Fee-Forgiving Protocol was never
applied to MRC-2 claims. Two Cigna representatives testified to that effect in Rule 30(b)(6) depositions, and Cigna
has provided a Special Investigations Provider Flag Request Form regarding the Protocol with the instructions
“Once you have determined the claim is not MRC2 . . .”
(Doc. Nos. 447-1 at 79:11-13, 448-12, 448-13 at 32:4-6,
181:17-182:2.) However, North Cypress contends that for
some number of MRC-2 claims, Cigna’s explanation of
benefits letter cites the exclusionary plan language in justifying the amount paid. (Doc. No. 443-12 at 1 (Affidavit
MRC stands for “Maximum Reimbursable Charge.” Doc. No. 447 at
viii.

7

38a
of Glenda Tankersley, North Cypress’s Business Office
Director.)) As with the question of proper assignment,
there is a fact dispute here that cannot be resolved at the
summary judgment stage. North Cypress and Cigna
have different accounts of how MRC-2 claims were paid,
and they have produced conflicting evidence. Therefore,
neither party can be awarded summary judgment on this
issue.
vii.

Emergency room claims

North Cypress also asserts damages for emergency
room (“E.R.”) claims subjected to the Fee-Forgiving Protocol. In its Motion for Summary Judgment, North Cypress inaccurately states that Cigna “claimed that it did
not apply the Protocol to [North Cypress’s] E.R. claims.”
(Doc. No. 443 at 26.) In fact, in its opposition brief, Cigna
does not deny that the Fee-Forgiving Protocol applied to
some E.R. claims. (Doc. No. 461 at 18-19.) Instead, Cigna
argues that it had reason to believe that North Cypress
was engaging in Fee-Forgiving on E.R. claims. Id. Therefore, there is no dispute on this issue, and Cigna is liable
(to the extent described supra) for violations of ERISA §
502(a)(1)(B) regarding E.R. claims.
viii. Calculating damages
North Cypress, through the report of its Business Office Director Glenda Tankersley, has proposed four possible methods to calculate damages for its § 502(a)(1)(B)
claim. (Doc. No. 443 at 28-29.) In response, Cigna cites the
report of its expert, Dr. Sean May. (Doc. No. 461 at 2526.) According to Dr. May, Ms. Tankersley’s report contains fundamental flaws. Id. Dr. May therefore comes to
a different conclusion about the maximum amount of
damages available. Id. Because the experts disagree, and

39a
in light of this Court’s rulings on the § 502(a)(1)(B) claim
supra, the Court declines to grant summary judgment on
the issue of calculation of damages.
The other arguments regarding § 502(a)(1)(B) damages can be dispensed with quickly. Cigna argues that
North Cypress may not recover damages for claims that
were denied or reduced for reasons unrelated to fee-forgiving (for example, because the service was not medically necessary). (Doc. No. 447 at 30.) North Cypress does
not contest this argument, stating that “claims that were
denied for other than Protocol reasons . . . were not included in [North Cypress’s] damage calculations.” (Doc.
No. 457 at 31.) Cigna also argues that North Cypress may
not recover damages for claims for which there is no evidence of underpayment, noting that Ms. Tankersley included several claims in her report with $0 listed in damages. (Doc. No. 447 at 30.) North Cypress has clarified
that it is not seeking damages for claims with $0 in damages, so there is no dispute on this issue. (Doc. No. 457 at
31.)
B. North Cypress’s ERISA § 502(a)(3) claim
In addition to its ERISA § 502(a)(1)(B) claim, North
Cypress also brings a claim of breach of fiduciary duty
under § 502(a)(3). Section 502(a)(3) allows a participant,
beneficiary, or fiduciary to “obtain other appropriate equitable relief . . . to enforce any provisions of this subchapter or the terms of the plan.” 29 U.S.C. § 1132(a).
A plaintiff may not seek a remedy under § 502(a)(3)
that is available under § 502(a)(1)(B). See, e.g., Musmeci
v. Schwegmann Giant Super Mkts., 332 F.3d 339, 349 n. 5
(5th Cir. 2003) (“Because we have found a remedy is available at law under Section 502(a)(1)(B), the Plaintiffs are

40a
foreclosed from equitable relief under Section 502(a)(3).”)
(citing Great-West Life & Annuity Ins. Co. v. Knudson,
534 U.S. 204 (2002)); Corcoran v. United Healthcare, Inc.,
965 F.2d 1321, 1335 (5th Cir. 1992) (“When a beneficiary
simply wants what was supposed to have been distributed
under the plan, the appropriate remedy is 502(a)(1)(B).”);
Tolson v. Avondale Indus., Inc.,141 F.3d 604, 610 (5th
Cir. 1998) (“Because Tolson has adequate redress for disavowed claims through his right to bring suit pursuant to
Section 1132(a)(1), he has no claim for breach of fiduciary
duty under section 1132(a)(3).”). North Cypress’s claim
clearly falls under § 502(a)(1)(B), as an action “to recover
benefits due to [it] under the terms of his plan, to enforce
[its] rights under the terms of the plan, or to clarify [its]
rights to future benefits under the terms of the plan.”
North Cypress may not seek identical relief via an allegation of breach of fiduciary duty under § 502(a)(3). Cigna
is thus entitled to summary judgment on North Cypress’s
§ 502(a)(3) claim.
C. North Cypress’s ERISA § 503 claim
North Cypress further alleges that Cigna violated
ERISA § 503 by denying North Cypress a full and fair
review of the claims at issue. Section 503 requires an employee benefit plan administrator to:
(1) provide adequate notice in writing to any participant or beneficiary whose claim for benefits under the
plan has been denied, setting forth the specific reasons for such denial, written in a manner calculated to
be understood by the participant, and
(2) afford a reasonable opportunity to any participant
whose claim for benefits has been denied for a full and

41a
fair review by the appropriate named fiduciary of the
decision denying the claim.
29 U.S.C. § 1133. In order to satisfy § 503, a claim administrator must provide review of the specific ground for an
adverse decision. Robinson v. Aetna Life Ins. Co., 443
F.3d 254, 257 (5th Cir. 2005). The standard for a § 503
claim is substantial compliance. Lacy v. Fulbright & Jaworski, 405 F.3d 254, 257 (5th Cir. 2005). “Technical noncompliance with ERISA procedures will be excused so
long as . . . the beneficiary [receives] an explanation of the
denial of benefits that is adequate to ensure meaningful
review of that denial.” Sanborn-Alder v. Cigna Group
Ins., 771 F. Supp. 2d 713, 719 (S.D. Tex. 2011).
North Cypress does not allege any facts suggesting
that Cigna failed to provide a full and fair review of the
claims at issue. North Cypress points to evidence that
Cigna automatically referred North Cypress claims to its
Special Investigations Unit (SIU) and that Cigna treated
North Cypress claims systematically by subjecting them
to the Fee-Forgiving Protocol. Both of these allegations,
though, refer to Cigna’s initial processing of the claims,
not to the subsequent review mandated by § 503. In fact,
the record shows that Cigna provided clear notice about
the specific reason for the denial of claims under the Protocol. In each of the denial letters reviewed by the Court,
Cigna cited its concerns about fee-forgiving and quoted
the exclusionary plan language. See Doc. Nos. 278-1, 4629, 462-10, 462-11. Moreover, Cigna maintained an administrative review process that resulted in at least a handful
of claims being partially or completely reversed. See supra § III(A)(iv). As such, the Court finds that summary
judgment should be awarded to Cigna on North Cypress’s § 503 claim.

42a
D. North Cypress’s ERISA § 502(c)(1)(B) claim
North Cypress also alleges that Cigna violated
ERISA by refusing to provide requested plan documents.
ERISA § 1024(b) requires plan administrators to make
plan documents available to participants and beneficiaries upon request. 29 U.S.C. § 1024(b). Refusal to comply
within 30 days subjects a plan administrator to liability of
up to $100 per day under § 502(c)(1)(B). 29 U.S.C. §
1132(c)(1)(B). North Cypress alleges that it made numerous requests for information from Cigna for documentation of claims procedures and that Cigna repeatedly failed
to provide the requested information.
North Cypress is neither a plan participant nor a beneficiary and therefore is not automatically entitled to review plan documents under § 1024(b). See Koenig v.
Aetna Life Ins. Co., Civil Action No. 4:13-CV-00359, 2015
WL 6473351, at *5 (S.D. Tex. Oct. 27, 2015) (citing Hermann Hosp. v. MEBA Med. & Benefits Plan, 959 F.2d
569, 576 (5th Cir. 1992), overruled in part by Access
Mediquip, L.L.C. v. UnitedHealthcare Ins. Co., 698 F.3d
229, 230 (5th Cir. 2012)). Although North Cypress as an
assignee has the right to enforce the contracts between
plan participants and Cigna, “[t]he assignment of a right
to payment, without more, does not automatically convert
North Cypress into a ‘beneficiary’ for purposes of . . .
§ 502(c).” Id. The record shows that, in those cases where
North Cypress presented written authorization from
plan participants, Cigna provided the requested plan documents. See Doc. Nos. 268-50, 279-4. Because North Cypress was not automatically entitled to review the plan
documents by virtue of the assignment of benefits, Cigna
had no further obligation to North Cypress under ERISA

43a
§ 1024(b). Therefore, Cigna is entitled to summary judgment on North Cypress’s § 502(c)(1)(B) claim. 8
E. Repricing agreements
Prior to the implementation of the Fee-Forgiving
Protocol in 2008, North Cypress and Cigna entered into
repricing agreements for hundreds of North Cypress’s
claims. (Doc. No. 443 at 29.) Once the Protocol was implemented, Cigna refused to honor 337 of those agreements,
forming the basis of North Cypress’s breach of contract
claim. Id. Cigna argues that ERISA preempts any claim
for breach of contract. 9
ERISA’s preemption clause states that the statute
“supersede[s] any and all State laws insofar as they may
now or hereafter relate to any employee benefit plan.” 29
U.S.C. § 1144(a). Subject to the preemption clause, “if an
individual, at some point in time, could have brought his
claim under ERISA 502(a)(1)(B), and where there is no
Cigna also argues that it cannot be liable under § 502(c) because it
is not the designated plan administrator. Because North Cypress is
not a participant or beneficiary for purposes of § 502(c), the Court
does not reach this issue.
8

9
This Court previously addressed the issue of preemption in its August 10, 2012 Memorandum and Order. (Doc. No. 331.) At that time,
the Court found that North Cypress lacked standing to pursue its
ERISA claims. Id. Because North Cypress could not pursue remedies
under ERISA, the Court found that the breach of contract claim was
not preempted. Id. The Fifth Circuit reversed this Court’s ruling on
the ERISA standing issue, thereby “remov[ing] the foundation of the
district court’s preemption ruling.” N. Cypress Med. Ctr. Operating
Co., Ltd. v. Cigna Healthcare, 781 F.3d 182, 198 (5th Cir. 2015). The
Fifth Circuit remanded to this Court the issue of whether ERISA
preempts North Cypress’s breach of contract claim in light of the
Fifth Circuit’s ruling on ERISA standing. Id. at 197-98.

44a
other independent legal duty that is implicated by a defendant’s actions, then the individual’s cause of action is
completely preempted.” Aetna Health Inc. v. Davila, 542
U.S. 200, 208 (2004). This provision is “intended to ensure
that employee benefit plan regulation would be ‘exclusively a federal concern.’ ” Id. at 208. The Supreme Court
has commented that ERISA’s preemption provision is
“deliberately expansive” and “conspicuous for its
breadth.” FMC Corp. v. Holliday, 498 U.S. 52, 58 (1990);
Pilot Life Ins. Co. v. Dedeaux, 481 U.S. 41, 46 (1987).
As the Fifth Circuit noted, the repricing agreements
at issue here “by their terms are subject to the underlying ERISA plans.” N. Cypress, 781 F.3d at 197. Therefore, the Court finds that North Cypress’s breach of contract claim is preempted by ERISA. To the extent that
North Cypress seeks relief for the repricing agreements
under ERISA § 502(a)(1)(B), 10 damages may be available
subject to the Court’s findings supra.
F. Cigna’s affirmative defense of recoupment
Cigna has alleged that, by waiving patient contributions for medical services, North Cypress artificially inflated the cost of the service in the claims submitted to
Cigna. (Doc. No. 293 ¶¶ 25-37.) As such, Cigna brought
counterclaims under ERISA § 502(a)(3) to recover alleged overpayments to North Cypress prior to the implementation of the Fee-Forgiving Protocol. Id. ¶ 49. Alternatively, Cigna sought “a declaration that it may offset
from future claim payments to [North Cypress] the
amount of these overpayments.” Id. This Court dismissed
See Doc. No. 447 at 29-30 (“there is no need to determine if [North
Cypress’s] breach of contract claims are pre-empted. . . . These are
still ERISA claims”).

10

45a
Cigna’s ERISA claims as time-barred, and the Fifth Circuit affirmed. N. Cypress, 781 F.3d at 206. In affirming
the dismissal of Cigna’s ERISA counterclaims, the Fifth
Circuit distinguished between a counterclaim and the affirmative defense of recoupment: “[a]s a purely defensive
procedure, [recoupment] is available to defendant so long
as plaintiff’s claim survives—even though an affirmative
action by defendant is barred by limitations.” N. Cypress,
781 F.3d at 206 (citing Distribution Servs., Ltd. v. Eddie
Parker Interests, Inc., 897 F.2d 811, 812-13 (5th Cir.
1990)).
Cigna now argues that its claim to recover alleged
overpayments should be considered as an affirmative defense—recoupment—to North Cypress’s ERISA claims
rather than as a counterclaim. (Doc. No. 461 at 27.) Cigna
acknowledges that it did not expressly plead recoupment
as an affirmative defense, but it argues that it is within
this Court’s discretion to treat the pleadings as if Cigna
had done so. Id.
Federal Rule of Civil Procedure 8(c)(1) states that a
party “must affirmatively state any avoidance or affirmative defense” in its pleadings. A defendant must plead
with “enough specificity or factual particularity to give
the plaintiff ‘fair notice’ of the defense that is being advanced.” Rogers v. McDorman, 521 F.3d 381, 385-86 (5th
Cir. 2008) (quoting Woodfield v. Bowman, 193 F.3d 354,
362 (5th Cir. 1999)). Failure to timely plead an affirmative
defense may result in waiver and the exclusion of the defense from the case. Morris v. Homco Int’l, Inc., 853 F.2d
337, 342-43 (5th Cir. 1988). A court may, however, treat
an affirmative defense as though it were expressly raised
in the pleadings if it has been “tried by the parties’ express or implied consent.” Steadfast Ins. Co. v. SMX 98,

46a
Inc., No. Civ.A. H-06-2736, 2008 WL 62199, at *17 (S.D.
Tex. Jan. 3, 2008).
The parties here have not expressly or impliedly consented to try Cigna’s affirmative defense to recoupment.
In Steadfast, the case Cigna cites in support of its recoupment defense, the parties had “already thoroughly addressed in cross motions for summary judgment” the affirmative defense at issue. Id. By contrast, here North
Cypress has stated that it “squarely objects to Cigna’s effort to revive a pleading that has long since been dismissed.” (Doc. No. 466 at 29 n.14.) Because the parties
have not consented to treat Cigna’s overpayment allegations as an affirmative defense to North Cypress’s
ERISA claims, the Court declines to exercise its discretion to consider them as such. Cigna has thus waived the
affirmative defense of recoupment by failing to plead it.
G. North Cypress’s claim for attorneys’ fees
North Cypress has requested attorneys’ fees under
ERISA’s fee-shifting provision, 29 U.S.C. § 1132(g)(1).
Because the Court finds that fact questions remain on the
issues of lack of proper assignment, the application of the
Fee-Forgiving Protocol to MRC-2 claims, and the proper
calculation of damages, an award of attorneys’ fees would
be premature at this stage.
IV.

CONCLUSION

For the reasons set forth above, the Court finds that
North Cypress’s Motions for Summary Judgment (Doc.
Nos. 443, 489) are GRANTED IN PART. Cigna’s Motion
for Summary Judgment (Doc. No. 447) is GRANTED IN
PART.
IT IS SO ORDERED.

47a
SIGNED at Houston, Texas on this the 28th day of
September, 2016.
s/ Keith P. Ellison
HON. KEITH P. ELLISON
UNITED STATES DISTRICT JUDGE

48a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
CIVIL ACTION NO. 4:09-CV-2556
NORTH CYPRESS MEDICAL CENTER
OPERATING CO., LTD., et al.,
Plaintiffs,
v.
CIGNA HEALTHCARE, et al.,
Defendants.
Filed: February 6, 2017
MEMORANDUM AND ORDER
Before KEITH P. ELLISON, United States District
Judge.
Pending before the Court are the parties’ Motions for
Reconsideration of the Court’s September 28, 2016 Order
(Doc. Nos. 525 and 531). After considering the Motions,
the responses thereto, and all applicable law, the Court
determines that both Motions should be denied.
I.

BACKGROUND

This case arises out of a dispute over the obligation of
an insurer (Defendants, hereinafter “Cigna”) to pay a
hospital (Plaintiffs, hereinafter “North Cypress”) for

49a
medical services provided to insured patients. The facts
of the case are familiar to the parties and need not be recited here in full. The central issue in the case is Cigna’s
interpretation of plan language stating that “payment for
the following is specifically excluded: . . . charges for
which you [patients] are not obligated to pay or for which
you are not billed.” N. Cypress Med. Ctr. Operating Co.,
Ltd. v. Cigna Healthcare, 781 F.3d 182, 187 (5th Cir.
2015). Cigna interpreted this language to mean that patients had no insurance coverage for medical procedures
for which the patient was not billed. Id. at 189. Accordingly, Cigna implemented a Fee–Forgiving Protocol under which it drastically reduced its payment of claims to
North Cypress (typically paying $0 or $100) where Cigna
believed that North Cypress had waived or reduced patient contribution. Id. North Cypress brought claims
against Cigna under the Employee Retirement Income
Security Act (“ERISA”) and for breach of contract.
In its September 28, 2016 Order, the Court granted
summary judgment on various issues in the case. (Doc.
No. 529.) North Cypress and Cigna have both moved for
reconsideration of the Court’s September 28, 2016 order.
(Doc. Nos. 525 and 531.)
II.

LEGAL STANDARD

Rule 54(b) allows a court to revise an interlocutory order any time prior to the entry of judgment adjudicating
all the claims and all the parties’ rights and liabilities. The
Federal Rules of Civil Procedure do not, however, specifically provide for motions for reconsideration. See Shepherd v. Int’l Paper Co., 372 F.3d 326, 328 n. 1 (5th Cir.
2004). Motions for reconsideration from interlocutory orders are generally governed by the standards for Rule

50a
59(e) motions. Hamilton Plaintiffs v. Williams Plaintiffs, 147 F.3d 367, 371 n. 10 (5th Cir. 1998); Thakkar v.
Balasuriya, No. H–09–0841, 2009 WL 2996727, at *1
(S.D. Tex. Sept. 9, 2009). 1
A motion under Rule 59(e) must “clearly establish either a manifest error of law or fact or must present newly
discovered evidence.” Ross v. Marshall, 426 F.3d 745, 763
(5th Cir. 2005) (citing Simon v. United States, 891 F.2d
1154, 1159 (5th Cir. 1990)). Relief is also appropriate
where there has been an intervening change in the controlling law. See Schiller v. Physicians Resource Group
Inc., 342 F.3d 563, 567 (5th Cir. 2003). Motions under
Rule 59(e) “cannot be used to raise arguments which
could, and should, have been made before the judgment
issued.” Id. In considering a motion for reconsideration,
a court “must strike the proper balance between two competing imperatives: (1) finality, and (2) the need to render
just decisions on the basis of all the facts.” Edward H.
Bohlin Co. v. Banning Co., 6 F.3d 350, 355 (5th Cir. 1993).
While a district court has “considerable discretion” to
grant or deny a motion under Rule 59(e), id., the Fifth
Circuit cautions that reconsideration under Rule 59(e) is
an extraordinary remedy that courts should use sparingly. Templet v. HydroChem Inc., 367 F.3d 473, 479 (5th
Cir. 2004); see also In re Goff, No. 13–41148, 2014 WL
North Cypress emphasizes that Rule 54(b) allows a court to reverse
a prior ruling on an interlocutory order “for any reason it deems sufficient.” United States v. Renda, 709 F.3d 472, 479 (5th Cir. 2013) (internal quotation marks and citation omitted). However, the Fifth Circuit has endorsed the use of the Rule 59(e) motion standard on motions for reconsideration. Hamilton Plaintiffs v. Williams Plaintiffs,
147 F.3d 367, 371 n. 10 (5th Cir. 1998); Thakkar v. Balasuriya, No.
H–09–0841, 2009 WL 2996727, at *1 (S.D. Tex. Sept. 9, 2009).

1

51a
4160444, *4 (5th Cir. 2014) (“A motion for reconsideration
should only be granted in extraordinary circumstances”).
III.

ANALYSIS
A. North Cypress’s ERISA § 502(a)(1)(B) claim

The Court found in its September 28, 2016 Memorandum and Order that Cigna had violated ERISA §
502(a)(1)(B), but that North Cypress could not recover
for any claims for which North Cypress failed to exhaust
administrative remedies. Both North Cypress and Cigna
challenge aspects of the Court’s ruling on § 502(a)(1)(B).
1.

Abuse of discretion

A claim for benefits under ERISA § 502(a)(1)(B) proceeds in stages. First, the court asks whether the plan administrator’s interpretation is “legally correct.” Anderson v. Cytec Indus., 619 F.3d 505, 512 (5th Cir. 2010). If it
is not, the court proceeds to the second question: whether
the interpretation was an abuse of discretion. Id. Factors
at this stage include, but are not limited to: whether the
plan administrator had a conflict of interest, the internal
consistency of the plan, the factual background of the determination, and any inferences of lack of good faith. N.
Cypress, 781 F.3d at 196.
In its September 28, 2016 Memorandum and Order,
this Court determined that Cigna’s interpretation of the
plan was not legally correct. (Doc. No. 529 at 9.) The
Court therefore proceeded to the question of abuse of discretion. The Court found that the evidence regarding conflict of interest was inconclusive, and that the evidence regarding internal consistency of the plan weighed in
Cigna’s favor. Id. at 10–12. However, the Court ultimately found that Cigna had abused its discretion based

52a
on the factual background of the determination and any
inferences of lack of good faith. Id. at 12–15. In particular,
the Court found that, although Cigna claimed it was trying to curtail North Cypress’s fee-forgiving practices in
order to prevent harmful externalities in the insurance
market, in fact Cigna’s goal was to pressure North Cypress into negotiating an in-network contract. Id. The
Court cited various statements to that effect made in
Cigna’s internal emails and presentations. Id.
North Cypress challenges the Court’s findings with
regard to conflict of interest and internal consistency of
the plan. These findings, however, ultimately had no
bearing on the outcome. Conflict of interest and internal
consistency are merely factors in the Court’s inquiry regarding abuse of discretion. Because North Cypress prevailed on the ultimate factor—factual background of the
determination and any inferences of lack of good faith—
it prevailed on the overall question of abuse of discretion.
There is therefore no reason for the Court to revisit its
findings on the other factors, since the outcome (a finding
that Cigna abused its discretion) would remain unchanged. For the same reason, the Court declines to revisit its finding that collateral estoppel does not apply to
the issue of abuse of discretion. The Court concluded that
Cigna abused its discretion based on the facts of this case.
The application of collateral estoppel would not change
that outcome.
Cigna, meanwhile, challenges the Court’s ruling on
factual background of the determination and any inferences of lack of good faith. Cigna makes two primary arguments. First, Cigna argues that the statements cited
by the Court should be discounted because they were

53a
made by individuals outside Cigna’s Special Investigations Unit (SIU). Cigna argues that SIU was responsible
for investigating North Cypress’s fee-forgiving practices,
developing the Fee–Forgiving Protocol, and reviewing
North Cypress’s appeals. The evidence that Cigna cites,
however, does not bear this out. Cigna’s evidence establishes that SIU played a role in investigating North Cypress’s fee-forgiving practices and notes that “SIU [gave]
specific processing instructions for each claim.” See Doc.
Nos. 448–6, 462–12 at 3. This evidence does not establish
that SIU had exclusive control over the development and
implementation of the Fee–Forgiving Protocol. As such,
the Court is not persuaded that the strong statements
made by Cigna employees and cited in the September 28,
2016 Memorandum and Order should be disregarded in
assessing bad faith on the part of Cigna.
Second, Cigna urges the Court to consider evidence
that Cigna had other motivations for implementing the
Fee–Forgiving Protocol besides pressuring North Cypress into a contract negotiation. These include curtailing
fee-forgiving behavior and saving money for struggling
plan sponsors. See, e.g., Doc. Nos. 267–7 (urging implementation of the Fee–Forgiving Protocol “with hopes
that we’ll drive a contract discussion or stop the behavior”
(emphasis added)), 270–1 at 85 (expressing concern about
the fiscal challenges facing plan sponsor Cy Fair Independent School District). According to Cigna, this evidence shows at least a genuine dispute about Cigna’s motivation for implementing the Fee–Forgiving Protocol.
However, Cigna offers nothing to dispute the strong evidence showing that the Fee–Forgiving Protocol was designed to pressure North Cypress back to the negotiating
table. As such, Cigna’s evidence merely suggests mixed

54a
motivations. The fact that Cigna had other, legitimate
motivations does not change the Court’s finding that
Cigna acted in bad faith by attempting to drive contract
negotiations through a program ostensibly aimed at curtailing fee-forgiving.
2.

Failure to exhaust administrative
remedies

North Cypress also moves for reconsideration of the
Court’s summary judgment ruling on all claims for which
North Cypress failed to exhaust administrative remedies.
North Cypress maintains that it was not required to exhaust administrative remedies, since pursuing administrative remedies would have been futile. To qualify for the
futility exception to the exhaustion requirement, the
claimant must show a “certainty of an adverse decision.”
Bourgeois v. Pension Plan for Employees of Santa Fe
Int’l Corps., 215 F.3d 475, 479 (5th Cir. 2000) (citing
Commc’ns Workers of Am., 40 F.3d at 433) (emphasis in
original). The claimant is also required to show hostility
or bias on the part of the administrative review committee. McGowin v. ManPower Int’l, Inc., 363 F.3d 556, 559
(5th Cir. 2004).
In its Motion for Reconsideration, North Cypress
highlights the evidence in the record of Cigna’s policy of
denying North Cypress’s claims. In particular, North Cypress urges the Court to consider a November 10, 2008
letter from Cigna’s John W. Matheny and North Cypress’s response dated November 14, 2008. (Doc. No. 525
at 3–4.) The Court maintains, however, that the reversal
of six out of 24 claim appeals in the record defeats any
claim by North Cypress of a “certainty of an adverse decision,” see Bourgeois, 215 F.3d at 479, regardless of any
communications between the parties ex ante about how

55a
claims would be handled. North Cypress put forth ample
evidence of hostility and bias, both of which are relevant
to the issue of futility. However, North Cypress cannot
overcome the evidence that six out of the 24 appeals reviewed by the Court resulted in favorable decisions for
North Cypress. In light of that evidence, no degree of
hostility or bias can establish a certainty of adverse decision on appeal. And though North Cypress characterizes
Bourgeois as a “unique” opinion, Bourgeois’s certainty
standard remains binding Fifth Circuit law.
In an attempt to minimize the significance of the six
favorable administrative appeals decisions in the record,
North Cypress argues that the decisions on these claims
resulted from external pressure. Specifically, North Cypress contends that the only reason that four of the six
claims were reversed in the administrative process was
because individual plan participants complained to the
Texas Department of Insurance (TDI). (Doc. No. 525 at
15.) North Cypress argues that these reversals therefore
resulted, not from a fair evaluation on Cigna’s part, but
rather from Cigna’s desire to avoid scrutiny by a state
regulatory agency. Id. This argument fails for several
reasons. First, North Cypress did not raise this argument
in its Motions for Summary Judgment and therefore may
not raise it now. See Schiller v. Physicians Resource
Group Inc., 342 F.3d 563, 567 (5th Cir. 2003) (motions under Rule 59(e) “cannot be used to raise arguments which
could, and should, have been made before the judgment
issued”). Second, North Cypress does not provide any explanation for the partial reversal of two of the claims. See
Doc. No. 278–1 at 12–13, 71–73. This suggests that, at
least in some circumstances, favorable decisions on appeal could be obtained without any outside regulatory

56a
pressure. Third, even if the Court were to accept North
Cypress’s allegation that TDI scrutiny motivated the reversals, the Court is not persuaded that the motivation
for a favorable decision on appeal factors into the certainty standard. After all, the administrative exhaustion
requirement exists in part to provide a non-adversarial
method of claim settlement. See Diaz v. United Agric.
Emp. Welfare Benefit Plan & Trust, 50 F.3d 1478, 1483
(9th Cir. 1995). To that end, it does not matter why an administrator reverses a claim on appeal; administrative exhaustion does its work to the extent that it keeps some
claims out of the courts. Therefore, since the reason for a
favorable decision does not speak to the certainty of an
adverse decision on appeal, North Cypress’s allegations
about the TDI complaints are irrelevant to the question
of futility.
The cases that North Cypress discusses—Bourgeois;
Commc’ns Workers of Am. (the D.C. Circuit case that the
Fifth Circuit cited for the certainty standard in Bourgeois); and Arapahoe Surgery Center, LLC v. Cigna
Healthcare, Inc., 171 F. Supp. 3d 1092 (D. Colo. 2016)—
do not support applying the futility exception to the facts
of this case. Notwithstanding the fact that two of these
cases come from outside the Fifth Circuit, all are inapposite because none involved successful administrative appeals on behalf of some claimants. Moreover, even if it
were applicable to this case, Arapahoe’s language confirms that certainty is required for the futility exception:
“plaintiff must establish that it is certain that his claim
will be denied on appeal, not merely that he doubts that
an appeal will result in a different decision.” 171 F. Supp.
3d at 1110 (internal quotes omitted) (emphasis added).

57a
Next, North Cypress argues that, in order to establish certainty, it would have had to appeal all 10,000 claims
at issue. (Doc. No. 525 at 7.) This argument misunderstands the certainty standard. The purpose of the futility
exception is to allow claimants to proceed despite failure
to pursue administrative appeals, by showing that an appeal would have served no purpose. Here North Cypress
simply cannot show that.
North Cypress further argues that it was not required
to exhaust administrative remedies because of Cigna’s alleged failure to produce plan documents. North Cypress
cites no binding authority suggesting that Cigna’s alleged
failure to produce plan documents has any effect on the
administrative exhaustion requirement. In any event, the
Court is not persuaded that Cigna refused to provide plan
documents as required by ERISA § 1024(b). See Doc. No.
529 at 22–23.
The Court rejects three additional arguments on the
basis that North Cypress failed to raise them in its Motions for Summary Judgment: (1) that Cigna failed to
meet its obligations under 29 C.F.R. § 2560.503–1(g), as a
result of which North Cypress should be deemed to have
exhausted administrative remedies, 2 (2) that any claims

The only reference to § 2560.503–1 in North Cypress’s motions for
summary judgment appears in the context of North Cypress’s argument concerning Connecticut General Life Insurance Co., et al. v.
Humble Surgical Hosp., LLC, C.A. No. 4:13–cv–3291, 2016 WL
3077405 (S.D. Tex. Jun. 1, 2016) (hereinafter “Humble”). In that case,
the court deemed the hospital’s claims exhausted because of Cigna’s
failure to follow claims procedures, citing 29 C.F.R. § 2560.503–1(1).
Humble, 2016 WL 3077405, at *2 n.1. In its September 28, 2016 Mem-

2

58a
filed after August 11, 2009 (the date on which North Cypress filed suit) are not subject to the administrative exhaustion requirement, and (3) that Cigna’s present litigation is contrary to the position Cigna would have taken in
an administrative appeal. See Schiller, 342 F.3d at 567.
Finally, North Cypress repeats (almost word for
word) the argument from its Motion for Summary Judgment that the ruling on administrative exhaustion in Connecticut General Life Insurance Co., et al. v. Humble
Surgical Hosp., LLC, C.A. No. 4:13–cv–3291, 2016 WL
3077405 (S.D. Tex. Jun. 1, 2016) (hereinafter “Humble”)
should be applied to this case. See Doc. No. 489 at 9. The
Court rejected this argument in its September 28, 2016
Order, and North Cypress has provided no reason for the
Court to reconsider its decision.
B. North Cypress’s ERISA § 503 claim
ERISA § 503 requires an employee benefit plan administrator to:
(1) provide adequate notice in writing to any participant or beneficiary whose claim for benefits under the
plan has been denied, setting forth the specific reasons for such denial, written in a manner calculated to
be understood by the participant, and
(2) afford a reasonable opportunity to any participant
whose claim for benefits has been denied for a full and
fair review by the appropriate named fiduciary of the
decision denying the claim.

orandum and Order, this Court held that Humble did not have preclusive effect on the issue of administrative exhaustion. (Doc. No. 529
at 15 n.5.)

59a
29 U.S.C. § 1133. In order to satisfy § 503, a claim administrator must provide review of the specific ground for an
adverse decision. Robinson v. Aetna Life Ins. Co., 443
F.3d 254, 257 (5th Cir. 2005). The standard for a § 503
claim is substantial compliance. Lacy v. Fulbright & Jaworski, 405 F.3d 254, 257 (5th Cir. 2005). “Technical noncompliance with ERISA procedures will be excused so
long as…the beneficiary [receives] an explanation of the
denial of benefits that is adequate to ensure meaningful
review of that denial.” Sanborn–Alder v. Cigna Group
Ins., 771 F. Supp. 2d 713, 719 (S.D. Tex. 2011).
This Court denied North Cypress’s § 503 claim on
summary judgment. (Doc. No. 529 at 20–22.) The Court
noted that the only evidence North Cypress had produced referred to Cigna’s initial processing of the claims,
not to the subsequent review mandated by § 503. Id. The
Court further noted that, in each of the denial letters reviewed by the Court, Cigna cited its concerns about feeforgiving and quoted the exclusionary plan language. See
Doc. Nos. 278-1, 462-9, 462-10, 462-11.
North Cypress now presents evidence suggesting
that Cigna tracked appeals of North Cypress claim denials and instructed appeals committee members to affirm
the original denials pursuant to the protocol. (Doc. Nos.
526–3, 526–4, 526–14.) This evidence does not warrant a
reversal of the Court’s grant of summary judgment. Motions under Rule 59(e) “cannot be used to raise arguments which could, and should, have been made before
the judgment issued.” See Schiller v. Physicians Resource Group Inc., 342 F.3d 563, 567 (5th Cir. 2003).
North Cypress does not claim that its evidence is newly
discovered, and its earlier arguments regarding the § 503

60a
claim were based on initial denials rather than subsequent review.
North Cypress also argues that a ruling against Cigna
on the § 502(a)(1)(B) claim is fundamentally inconsistent
with a ruling that Cigna provided full and fair review as
required by § 503. The Court disagrees. Once again, the
Court points to the distinction between the decisions
made at the initial claims processing stage and those
made during administrative review. The evidence shows
that Cigna provided notice in its denial letters of the reasons for denial, reviewed claims that were administratively appealed, and in some cases, reversed denials on
appeal. The Court maintains that, in doing so, Cigna substantially complied with § 503. See Lacy v. Fulbright &
Jaworski, 405 F.3d 254, 257 (5th Cir. 2005).
C. North Cypress’s ERISA § 502(c)(1)(B) claim
This Court granted summary judgment to Cigna on
North Cypress’s ERISA § 502(c)(1)(B) claim. ERISA §
1024(b) requires plan administrators to make plan documents available to participants and beneficiaries upon request. 29 U.S.C. § 1024(b). Refusal to comply within 30
days subjects a plan administrator to liability of up to
$100 per day under § 502(c)(1)(B). 29 U.S.C. §
1132(c)(1)(B). North Cypress alleged that it made numerous requests for information from Cigna for documentation of claims procedures and that Cigna repeatedly failed
to provide the requested information. The Court found,
however, that North Cypress was not entitled to review
plan documents under § 1024(b) because it was neither a
plan participant nor a beneficiary. See Koenig v. Aetna
Life Ins. Co., Civil Action No. 4:13–CV–00359, 2015 WL
6473351, at *5 (S.D. Tex. Oct. 27, 2015) (citing Hermann
Hosp. v. MEBA Med. & Benefits Plan, 959 F.2d 569, 576

61a
(5th Cir. 1992), overruled in part by Access Mediquip,
L.L.C. v. UnitedHealthcare Ins. Co., 698 F.3d 229, 230
(5th Cir. 2012)).
North Cypress’s challenge to the Court’s ruling is
twofold. First, North Cypress repeats its argument that
its status as an assignee of benefits made it a beneficiary
for purposes of § 502(c). The Court explained in the September 28, 2016 Memorandum and Order why this is not
the case, and North Cypress has not provided any reason
to reconsider this ruling. Second, North Cypress notes
that the Court did not address the argument that Cigna
was the de facto plan administrator. It was not necessary
to reach this question, however. Regardless of whether
Cigna was required to make plan documents available to
plan participants and beneficiaries due to its status as a
de facto plan administrator, Cigna was not required to
make those documents available to North Cypress, for the
reasons explained in the September 28, 2016 Memorandum and Order.
D. North Cypress’s claim for attorneys’ fees
Finally, North Cypress challenges the Court’s denial
of attorneys’ fees. North Cypress notes that, under
ERISA, a court “in its discretion may allow a reasonable
attorneys’ fee and costs of action to either party so long
as the party has achieved some degree of success on the
merits.” LifeCare Mgmt. Servs. LLC v. Ins. Mgmt.
Adm’rs Inc., 703 F.3d 835, 846 (5th Cir. 2013) (emphasis
added) (internal quotations omitted). For the reasons explained in the September 28, 2016 Memorandum and Order, the Court declines to exercise its discretion to award
attorneys’ fees at this stage.

62a
IV.

CONCLUSION

For the reasons set forth above, the Court finds that
the parties’ Motions for Reconsideration of the Court’s
September 28, 2016 Order (Doc. Nos. 525 and 531) are
DENIED.
IT IS SO ORDERED.
SIGNED at Houston, Texas on this the 6th day of
February, 2017.
s/ Keith P. Ellison
HON. KEITH P. ELLISON
UNITED STATES DISTRICT JUDGE

63a
APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
CIVIL ACTION NO. 4:09-CV-2556
NORTH CYPRESS MEDICAL CENTER
OPERATING CO., LTD., et al.,
Plaintiffs,
v.
CIGNA HEALTHCARE, et al.,
Defendants.
Filed: August 7, 2018
FINDINGS OF FACT & CONCLUSIONS OF LAW
Before KEITH P. ELLISON, United States District
Judge.
The Court submits the following Findings of Fact and
Conclusions of Law pursuant to Rule 52(a)(1) of the Federal Rules of Civil Procedure.
I.

BACKGROUND

This case centers on the intricacies of healthcare insurance. Before the Court are the procedures by which
hospitals can bill patients and submit claims to an insurance company, and, in turn, how that insurance company
pays for patients’ care.

64a
Plaintiffs North Cypress Medical Center Operating
Co., Ltd. and North Cypress Medical Center Operating
Company, GP, LLC (collectively “NCMC”) filed suit
against Defendants Cigna Healthcare and Connecticut
General Life Insurance Company (collectively “Cigna”)
on August 11, 2009, seeking relief under state law and the
Employee Retirement Income Security Act (“ERISA”).
(Doc. No. 1.)
This Court initially made dispositive rulings several
years ago, which both parties appealed. The Fifth Circuit
affirmed in part and reversed in part. N. Cypress Med.
Ctr. Operating Co. v. Cigna Healthcare, 781 F.3d 182 (5th
Cir. 2015) (“North Cypress I”). Of importance here, the
Fifth Circuit ruled that NCMC had standing to bring
ERISA claims as assignee of the patients. The Fifth Circuit “remand[ed] to allow the district court a full opportunity to consider all of North Cypress’s claims for underpayment of benefits and its other closely related ERISA
claims with a fully developed record.” Id. at 197.
On remand, the parties developed a more complete
record through discovery and filed cross-motions for
summary judgment. (Doc. Nos. 443, 447, 489.) Based on
the Court’s summary judgment ruling, this case was narrowed to NCMC’s ERISA § 502(a)(1)(B) claim and,
within that claim, to the 575 benefit claims for which
NCMC exhausted its administrative remedies.
On October 10, 2017, this Court commenced a bench
trial. Over the course of the eight-day trial, the Court received evidence and heard sworn testimony. Having con-

65a
sidered the evidence, testimony, oral arguments presented during the trial, post-trial filings 1, and the applicable law, the Court sets forth the following Findings of
Fact and Conclusions of Law. Additionally, the Court
rules on two pending motions filed by NCMC.
II.

FINDINGS OF FACT

Parties & Insurance Plans
1. North Cypress Medical Center Operating Company, Ltd. owns a hospital and North Cypress
Medical Center Operating Company, GP LLC is
the general partner for the limited partnership;
collectively they are “NCMC,” the Plaintiff hospital in this case. (Tr. 1-94:22-95:2 (Behar).) 2
2. The hospital is a general acute care hospital with
an emergency room. (Tr. 1-77:10-15 (Behar).) It
opened on January 4, 2007. (Tr. 1-90:14-15
(Behar).)

The post-trial filings include the parties’ post-trial briefs and proposed findings of fact and conclusions of law, as well as later-filed letters and notices to the Court. (Doc. Nos. 662-68, 672-73, 675-79, 68183, 689.) The post-trial filings note, in particular, three cases that the
Fifth Circuit decided after the conclusion of the instant bench trial:
North Cypress Medical Center Operating Company, Ltd. v. Aetna
Life Insurance Company, No. 16-20674, 2018 WL 3635231 (5th Cir.
July 31, 2018); Ariana M. v. Humana Health Plan of Texas, Inc., 884
F.3d 246 (5th Cir. 2018) (en banc); Connecticut General Life Insurance Company v. Humble Surgical Hospital., L.L.C., 878 F.3d 478
(5th Cir. 2017).
1

2
Citations to the trial transcript are identified as “Tr. X-Y:Z (Witness),” where X indicates the day of trial, Y and Z identify the page
and line number, and the name of the witness is in parentheses.

66a
3. Cigna, the Defendant, is a health services company. (Tr. 4-198:15-19 (Sherry).)
4. Cigna administers insurance plans, the majority of
which are self-funded. (Tr. 4-198:20-22 (Sherry);
see Def. Exh. 1.001-1.186 (collectively, the
“plans”).) A self-funded insurance plan is an “Administrative Services Only” (“ASO”) plan for
which Cigna administers claims, but an employer,
such as a school district, is responsible for paying
all of the claims of its employee population. (Tr. 4199:2-21 (Sherry); see e.g., Def. Exh. 1.035 at CIGNCMC0582383.)
5. ASOs explicitly delegate to Cigna “the discretionary authority to interpret and apply plan terms
and to make factual determinations in connection
with its review of claims under the plans.” (See,
e.g., Def. Exh. 1.051 (“Aperio Technologies ASO”);
see also Doc. No. 677 at 15-16 (NCMC stating, in
its own Proposed Findings of Fact, “all of the
plans provided Cigna with the discretionary authority to interpret the provisions of the plan”).)
6. Cigna has set up a network of healthcare providers who agree to give Cigna a discounted rate off
of their billed charges and agree to refer patients
within the network. (Tr. 4-197:20-198:11 (Sherry);
see also Def. Exh. 82 at CIG-NCMC0011985.)
Cigna’s in-network healthcare providers agree to
discounted fees in exchange for receiving access to
Cigna’s pool of plan members. (Tr. 4-202:25-203:6
(Sherry).)

67a
7. The amount a patient pays is called the “[c]oinsurance,” and it is defined in the plans as “the percentage of charges for Covered Expenses that an
insured person is required to pay under the plan.”
(See e.g., Def. Exh. 1.035 at CIG-NCMC0582391.)
8. Typically, a patient’s coinsurance is lower when
the patient goes to an in-network provider. (Tr. 4203:18-24 (Sherry).) This is both because in-network providers have agreed to discounted fees
and because the insurer will pay a larger share of
the fee. For example, if a patient receives in-network care, the plan will pay 80 percent of the fee
and the patient will pay 20 percent of the fee;
whereas, if a patient receives out-of-network care,
the plan will pay 60 percent of the maximum reimbursable charge and the patient will pay 40 percent. (Tr. 4-205:13-206:12 (Sherry); e.g., Def. Exh.
1.035 at CIG-NCMC0582394; see also Tr. 4208:14-19 (Sherry) (this scheme “is absolutely
standard”).)
9. Payments for “charges which [the patient is] not
obligated to pay or for which [the patient is] not
billed” are “specifically excluded” from the plans.
(See, e.g., id. at CIG-NCMC0582421.)
10. The Plans define the amounts to be paid as based
on the “Maximum Reimbursable Charge.” (See,
e.g., Def. Exh. 1.035.) Some claims are covered by
Maximum Reimbursable Charge 1 (“MRC-1”) and
others by Maximum Reimbursable Charge 2
(“MRC-2”).

68a
11. MRC-1 is defined as “the lesser of: (1) the provider’s normal charge for a similar service or supply; or (2) the policyholder-selected percentile of
all charges made by providers of such service or
supply in the geographic area where it is received.” (Id. at CIG-NCMC0582442; Tr. 4-206:1922 (Sherry); see also Pl. Exh. 87 at CIGNCMC0094360.)
12. Some Plans include a “note” in the MRC-1 section:
“The provider may bill you for the difference between the provider’s normal charge and the Maximum Reimbursable Charge, in addition to applicable deductibles, copayments and coinsurance.”
(Pl. Exh. 87 at CIG-NCMC0094360; Def. Exh.
1.026 at CIG-NCMC0156030; but see (Def. Exh.
1.035) (does not include the “may bill” language).)
13. MRC-2 is the lesser of the provider’s normal
charge or a percentage of a Medicare-based fee
schedule adopted by the Plan. (Tr. 4-206:24-207:2
(Sherry).)
14. Emergency and urgent care services are an exception to the differing coinsurance rates for in-network and out-of-network care. For emergency
care, physicians are not restricted to in-network
referrals and the Plans pay the same amount regardless of whether the provider was in-network.
(See, e.g., Def. Exh. 1.060 (“CLARCOR Inc. ASO”)
at CIG-NCMC0618694; Def. Exh. 82 (“BeharCigna Contract”) at CIG-NCMC0011985.)

69a
Assignments
15. When NCMC admitted patients to the hospital,
the patients assigned their benefits to NCMC. The
paperwork that patients signed is called, “Consent
to Treatment and Release of Medical Information,” and it contains a section called, “Assignment of Benefits.” (See, e.g., Pl. Exh. 2.) The Assignment of Benefits section explicitly assigned
NCMC “the right to collect any and all unpaid insurance benefits, penalties, attorney’s fees, court
costs, and all other recoverable damages of any
nature from the medical insurance company(ies)
that provided coverage.” (Id.) NCMC’s policy is
that “[e]very patient” gives their consent and assignment. (Tr. 2-127:2-8, 11 (Jones).)
16. NCMC informed Cigna of each patient’s assignment of benefits. When NCMC submitted claims
forms to Cigna (“UB-04 claims forms”), NCMC
wrote “Benefits Assigned” on the form. (See, e.g.,
Def. Exh. 84.)
NCMC’s Prompt Pay Discount for Out-of-Network Patients
17. When NCMC opened in 2007, it was out-of-network with Cigna and all the major insurance carriers. (Tr. 1-252:13-21 (Behar).) NCMC remained
out-of-network with Cigna from January 4, 2007
through July 31, 2012, when it entered into an innetwork Hospital Services Agreement with Cigna.
(Tr. 5-91:9-14 (Tankersley); Def. Exh. 83.)
18. NCMC created a program called the Prompt Pay
Discount (or “Access NCMC”) to simulate an in-

70a
network experience for patients. (See Def. Exh. 31
(“Access NCMC Program Patient Participation
Form”); Def. Exh. 33 (“Access NCMC Script”);
Tr. 3-42:7-13, 3-45:7-20 (Jones); Tr. 5-110:8-20
(Tankersley).)
19. NCMC could determine Cigna’s in-network and
out-of-network coinsurance rates by calling Cigna.
(Tr. 3-32:20-23 (Jones).)
20. NCMC calculated the amount to bill a patient
through the Prompt Pay Discount “by taking 125
percent of the Medicare fee schedule and multiplying it by the patient’s in-network coinsurance
rate.” (Tr. 5-115:25-116:12 (Tankersley).) NCMC
documents sometimes refer to this function as the
“NCMC Fee Schedule calculator.” (Def. Exh. 30
(“NCMC Decision and Business Office Assistance
Manual”) at NCMC 8 30069; see also Def. Exhs.
101-104 (showing those calculations).) NCMC referred to the amount that resulted from that calculation as the “estimated reasonable and customary in-network allowed amount.” (Def. Exh. 31
(“Access NCMC Program Patient Participation
Form”); Tr. 3-45:7-20 (Jones).). If the patient paid
that amount−125 percent of the Medicare rate
multiplied by the in-network coinsurance
rate−within 120 days, they would not have to pay
anything else. (Tr. 3-53:23-55:1 (Jones); see also
Tr. 5-117:12-118:11 (Tankersley).)
21. The Prompt Pay Discount was offered to any patient with commercial insurance, with the exception of patients who required emergency services.

71a
(Tr. 3-40:3-5 (Jones); Tr. 5-114:22-115:1 (Tankersley).) The Prompt Pay Discount was not offered to
patients with Medicare. (Tr. 5-115:8-9 (Tankersley).)
22. Without the Prompt Pay Discount, patients may
not have been able to afford care at NCMC. (Tr. 352:5-16 (Jones).)
23. At the same time, the Prompt Pay Discount put
the hospital in a better negotiating position with
insurance companies, and saved the hospital
money in fee collection. (Def. Exh. 37 (“Access
NCMC Powerpoint”) at NCMC26 0069499-501;
Tr. 1-84:1-24 (Behar) (noting how much more
money NCMC collected from patients than the
typical hospital); Tr. 2-190:13-19 (Jones) (same).)
Initial Communications About Billing Practices
24. When NCMC opened, NCMC and Cigna exchanged letters about billing practices. On January 3, 2007, NCMC sent Cigna a letter titled “Notice of Discount” about its “Prompt Pay Discount.”
(Pl. Exh. 1 (“Notice of Discount Letters”) at CIGNCMC0083279.) NCMC’s letter stated, in part:
Until such time as we can establish a contractual relationship to serve all of your beneficiaries, NCMC will provide “out-of-network” services to your beneficiaries who request such
services. Your beneficiaries will be eligible to
participate in the NCMC Prompt Payment

72a
Out-of-Network Discount Policy on patient responsibility amounts for services and items
rendered.
(Id.) The letter did not disclose how the Prompt Pay
Discount was calculated.
25. Over the course of the next two years, NCMC sent
a substantially similar Notice of Discount Letter
to Cigna over twenty times via certified mail. (Pl.
Exh. 1; see also Tr. 1-88:12-14 (Behar).)
26. In response to the first Notice of Discount Letter,
Cigna replied, in part:
[Y]our letter would seem to propose a practice
known as ‘fee-forgiving,’ whereby your organization accepts an insurer’s payment as payment and waives any obligation of the patient
to pay the amounts not covered by insurance
or a benefit plan or otherwise agrees to collect
only in-network coinsurance and deductibles
rather than the deductible or co-insurance requirements applicable to services obtained
from a non-participating provider.
...
It is [Cigna’s] view that “fee-forgiving” on any
particular claim, or any portion thereof, could
constitute fraud and subject a provider to civil
and criminal liability. . .
Generally our health benefit plans exclude
from coverage “charges which the Employee
or Dependent is not legally required to pay.”
In other words, only expenses which patients
are legally obligated to pay are reimbursable.

73a
...
. . . [C]laim forms submitted to CIGNA by
North Cypress Medical Center should reflect
only the amount which North Cypress Medical
Center will accept as payment from the patient. Any portion of a charge which is in any
way waived or for which a patient is not personally responsible should not be reflected on
a claim form . . . For example, if your facility
has agreed to only charge a patient the amount
of the in-network copayment (for example,
$50.00), then only the $50 charge can be submitted as a claim for reimbursement under the
benefit plan. Hence, if the patient has an outof-network benefit, the payment would be $40.
...
Accordingly, payment for any claims North
Cypress Medical Center submits may be delayed or denied until we have assurance that
the charges shown on claim forms are your actual charges to the patient and that patients
will be required to pay amounts such as out-ofnetwork co-insurance and deductibles.
(Pl. Exh. 3B (“Morris Letter”).)
27. NCMC replied to the Morris Letter by denying
Cigna’s suspicions: “NCMC’s prompt pay policy
does not waive any portion of NCMC’s charges for
a service.” (Pl. Exh. 37 at CIG-NCMC0011457.)
NCMC wrote that Cigna “confuse[s] the amount
that NCMC is willing to accept from a patient that
promptly pays the patient portion of charges with
the amount that NCMC is willing to accept for the
entire charge.” (Id. (emphasis in original).) The

74a
letter did not explain how much a patient would be
charged by NCMC, what portion of the patient
charge would be waived, or how NCMC was calculating those amounts. (Tr. 1-239:24-240:9, 241:22242:19 (Behar).)
NCMC’s Chargemaster and Bills to Cigna
28. When NCMC treated patients covered by the
Plans, it submitted claims to Cigna for reimbursement of those services using UB-04 claims forms.
(Tr. 3-47:11-14 (Sherry).)
29. The fee calculations used for the Prompt Pay Discount were not used to bill Cigna. (Tr. 3-47:21-48:5
(Jones).)
30. Instead, NCMC used its Chargemaster to bill
Cigna—and all other insurers to whom it submitted claims.
31. The Chargemaster is a database that NCMC
maintains of all of the charges that NCMC could
bill for a service. (Tr. 5-39:8:12-13 (Tankersley).)
For example, it has separate prices for individual
pharmacy items. (Tr. 5-40:1-7 (Tankersley).) Before the hospital opened, a third-party consultant
set the charges in the Chargemaster. (Tr. 5-41:1842:1 (Tankersley).) After the hospital opened,
NCMC increased all Chargemaster prices, with
the exception of pharmacy and supply prices, by
five percent on an annual basis. (Tr. 5:42:2-12
(Tankersley).)

75a
32. NCMC would bill Cigna the sum of the Chargemaster prices for different products and services
provided. (Tr. 3:48:3-5 (Jones); Tr. 1-104:14-18
(Behar).) This means that NCMC calculated
charges for patients based on an entirely different
set of numbers than the charges for Cigna. 3 (Compare Def. Exh. 105 (“Chargemaster”) to Def.
Exhs. 101-104 (“NCMC Fee Calculators,” each for
a different year); see also Tr. 5-149:24-150:8
(Tankersley) (testifying that the amounts on the
UB-04 claims forms come from the Chargemaster
and the amounts used to calculate patient fees under Prompt Pay Discount do not come from the
Chargemaster.).
33. NCMC’s Chargemaster rates are higher than
Medicare rates. (Tr. 6-20:15-21 (May).) NCMC’s
Chargemaster rates sometimes exceeded 600% or
even 1,000% of the analogous Medicare rates. (Tr.
6-20:15-24 (May).) For example, patient CDH received gall bladder surgery at NCMC (Def. Exh.
84.) Patient CDH was charged $823.84. (Id. at
NCMC37 141599; Tr. 5-139:19-140:3 (Tankerlsey).) That amount was based on 20 percent−an
in-network coinsurance rate−of $4,119.24, the
amount calculated via the Prompt Pay Discount,
where $4,119.24 was 125 percent of Medicare.

Later, when Cigna and NCMC entered into an in-network Hospital
Services Agreement on July 31, 2012, the parties agreed to billing
based upon NCMC’s Chargemaster. (Def. Exh. 83 at 1.3 (defining
“Billed Charges”), III(A) (addressing how Chargemaster charges
could increase).)

3

76a
(Def. Exh. 84; Def. Exh. 103 (“NCMC Fee Calculator 2011”) at 66; Tr. 5-136:21-24, 140:12-17
(Tankersley).) Patient CDH paid $823.84 within 30
days and was never going to be charged more. (Tr.
5-140:18-25 (Tankersley).) For that same gall
bladder surgery of patient CDH, NCMC billed
Cigna $30,968.70. (Def. Exh. 84 at NCMC37
141578; Tr. 5-147:17-148:1 (Tankersley).) The
amount that formed the basis of the patient’s
charges came from Medicare and does not appear
on the bill to Cigna; the amount that was billed to
Cigna came from NCMC’s Chargemaster. (Tr. 5149:24-150:8 (Tankerlsey).) The Chargemaster
amount was more than nine times the Medicare
amount and more than seven times the 125 percent of Medicare amount that was used to calculate the patient’s fee. (See Tr. 5-147:21-24, 149:1823 (Tankersley).) The claim submission to Cigna
for patient CDH noted “Prompt Pay Discount” in
the “Remarks” section. (Def. Exh. 84 at NCMC37
141578.) NCMC made that remark on all UB-04
claims forms where it applied the Prompt Pay Discount. (Def. Exh. 33; Tr. 5-51:17-21, 156:25-157:9
(Tankersley).)
34. Cigna witnesses testified that they expected the
total amount entered on the UB-04 claims forms
to be the amount used to calculate the patient’s responsibility, as well as Cigna’s responsibility. (Tr.
4-90:10-14, 91:10-12, 99:7-20 (Sherry).) Neither the
Notice of Discount letters nor the “Prompt Pay
Discount” written into the UB-04 claims forms disclosed the use of Medicare or in-network coinsurance rates. (See Tr. 5-156:14-18 (Tankersley).)

77a

35. Notes from an NCMC business meeting indicated
that the Business Office “is not to disclose prompt
pay amounts to insurance carriers should insurance request such” (Def. Exh. 50 at NCMC26
0075813), and, outside of this litigation, NCMC did
not disclose the Prompt Pay Discount amounts or
method of calculation to plan administrators.
36. From the time that NCMC opened through November 16, 2008, Cigna paid NCMC for claims using the total amount provided on the UB-04 claims
forms, from the Chargemaster, to determine the
out-of-network coinsurance amounts. In other
words, Cigna would pay NCMC approximately 80
percent of the charges that NCMC submitted. (Tr.
4-18:4-24 (Sherry).) Cigna was using the first part
of the MRC-1 definition, not the alternative MRC1 approach that would have compared to other
hospitals. (Id.)
Cigna’s Investigation Into NCMC’s Billing Practices &
Response
37. For ASOs, Cigna was administering the payment,
but the payment was actually the employer’s
money. At least one ASO plan sponsor complained
about increasing out-of-network costs to both
Cigna and NCMC. (Tr. 3-192:20-24 (Sherry) (noting that employers like Cypress Fairbanks School
District “were losing a lot of money”); Tr. 2-43:3-7
(Behar) (“the Cypress-Fairbanks School District
suffered”); Def. Exh. 62 at NCMC8 29893 (noting
that 20 percent of the Cypress Fairbanks School
District out-of-network claims were being paid to

78a
NCMC, for a total of $1.3 million dollars, and that
this rate and amount were not sustainable for Cypress Fairbanks School District).) Cypress Fairbanks School District informed NCMC that, because of the ASO’s increase in out-of-network expenses, “much” of which it attributed to NCMC, it
would be raising premiums on employees. (Def.
Exh. 62 at NCMC8 29896.)
38. High out-of-network expenses generally made
Cigna suspicious of fee-forgiving activities. (Pl.
Exh. 108 (Ramirez Testimony from March 17,
2011) at 50-53.)
39. Wendy Sherry, President of Payer Solutions at
Cigna, testified that, in response to complaints
from employers, Cigna “launched an investigation” that involved people from multiple areas of
Cigna. (Tr. 3-90:21-91:17, 192:15-193:3 (Sherry).)
Other facilities, including Northwest Surgical
Center and Cy-Fair Surgery Center were also investigated. (Tr. 3- 157:14-24 (Sherry).)
40. Cigna’s Special Investigations Unit (“SIU”) was
involved in investigating NCMC. (Tr. 4-216:2-10
(Sherry).) The SIU sent 34 survey letters to Cigna
plan members (i.e. patients) about NCMC and received 19 responses. (Def. Exh. 14 at ¶ 4 (Declaration of Katrina Sharrow).) Seven members were
billed nothing and paid nothing to NCMC; one
member was billed and paid $45.00; four members
were billed and paid $100.00; one member was
billed and paid $102.00; four members were billed
and paid amounts ranging from $320.00 to $575.12;

79a
one member was billed $3,000 by NCMC but paid
nothing; and one member could not remember if
NCMC had billed her anything. (Id. at ¶ 7.)
NCMC did not bill any of the members the
amounts they were required to pay under their
plans. (Id. at ¶ 7; see also Pl. Exh. 86.)
41. During its investigation, the SIU did not learn that
NCMC was calculating patient responsibility
based on 125 percent of Medicare. (See Tr. 4222:11-15 (Sherry).)
42. On November 10, 2008, Cigna informed NCMC,
by letter, that Cigna believed there was “evidence
of a pattern of behavior by NCMC in which
NCMC generally collects $100 from the CIGNA
Participant, if any amount is collected at all.” (Pl.
Exh. 39 at 000636-37; Tr. 3-202:20-203:6 (Sherry).)
In that letter, Cigna informed NCMC that it
would reimburse claims based on the assumption
that a patient was only billed $100; therefore,
Cigna would imagine that $100 amount to be the
patient’s coinsurance amount for out-of-network
services, and Cigna would pay the plan’s corresponding coinsurance amount based on that. (Pl.
Exh. 39.) This practice would continue until
NCMC presented “clear evidence” that: “(1) the
charges shown on the NCMC submitted billing
are NCMC’s actual charges for the services rendered; and (2) the CIGNA participant has paid
their applicable out-of-network coinsurance
and/or deductible in accordance with their Cigna
benefit plan.” (Id. at 000636-37.) This letter described, and marked the start of, Cigna’s SIU’s

80a
“Fee-Forgiving Protocol,” which calculated the
amount Cigna would pay based on the assumption
that the patient’s portion of the payment was $100.
(Id.; see also Tr. 4- 217:15-20 (Sherry).)
43. NCMC responded, “NCMC assures you that
charges on claim forms submitted to Cigna are
NCMC’s actual charges. . . Cigna insureds are liable for amounts such as [out-of-network] co-insurance and deductibles, though, as indicated in
NCMC’s correspondence and bills to CIGNA, the
patient portion of charges may be reduced if a patient meets the requirements of NCMC’s prompt
pay policy.” (Pl. Exh. 46.)
44. Ms. Sherry testified that the Fee-Forgiving Protocol applied only to claims covered by MRC-1,
and not to claims covered by MRC-2. (Tr. 4217:21-218:5 (Sherry).)
45. The Fee-Forgiving Protocol resulted in a sharp
reduction in how much Cigna paid to NCMC per
claim. (See Pl. Exh. 64 at CIG-NCMC0082919
(“our spend[ing] at North Cypress Medical Center
as [sic] come down from $2Million/month to $200
thousand a month”).)
46. One of Cigna’s goals in implementing the FeeForgiving Protocol was to get NCMC to the negotiating “table” to work toward an in-network
agreement. (See Pl. Exh. 16 at CIGNCMC0398827; Pl. Exh. 23; Pl. Exh. 53 (discussing what contract to offer NCMC after implementing the Fee-Forgiving Protocol); Pl. Exh. 108

81a
(Ramirez Testimony from March 17, 2011) at 10405.)
47. Also when the fee-forgiving protocol began, Cigna
stopped applying its cost-containment program to
NCMC claims subject to the Fee-Forgiving Protocol. (Tr. 4-44:23-45:4, 151:6-10 (Sherry) (noting,
however, that Cigna did continue to collect vendor
fees).) Cost-containment programs can result in
Cigna collecting savings in some circumstances.
Once the cost-containment programs were
“turned off” with respect to NCMC claims, the
amount of money that Cigna made on NCMC
claims decreased. (Id.; Pl. Exh. 85B (summary of
fees, showing that Cigna made significantly more
money from fees on NCMC claims in 2008 before
the protocol was in place, than it did for the entirety of 2009 to 2012, though it made money
throughout); Pl. Exh. 62 (showing “a large savings” of approximately $621,000 on North Cypress
claims from December 2008).)
48. Once Cigna implemented the Fee-Forgiving Protocol, an initial reviewer would determine if the
claim submitted by NCMC was an MRC-2 claim,
and then all other NCMC claims were flagged and
sent to the SIU. (Pl. Exh. 49; Pl. Exh. 50; Pl. Exh.
82 (“continue applying SIU processing rules to
ALL claims at this point.”); Pl. Exh. 85D at 2 (Ms.
Sherry’s handwritten notes stating, “[f]lag a provider all claims go to SIU”); Tr. 4-119:22-120:1
(Sherry) (Ms. Sherry confirming the meaning of
her handwritten notes).) The SIU would make a

82a
recommendation on the claim. (Pl. Exh. 104 (Remlinger-Sharrow Testimony from Feb. 3, 2017) at
64.) This was a change in practice from how claims
were previously processed.
49. Where there were processing errors, the claim
processor would not follow the SIU’s recommendation. (Id. at 66-67.)
50. After the Fee-Forgiving Protocol was implemented, Cigna’s SIU sent 29 more survey questionnaires to plan members and received 8 responses. (Def. Exh. 14 at ¶ 9.). The results of the
responses were that five members were billed
nothing and paid nothing, two members were
billed amounts greater than 0 but less than was required, and one member could not remember, but
thought NCMC had charged him a “copay” of
“several hundred dollars. (Id. at ¶ 11.)
NCMC’s Appeals of Claims
51. Cigna maintained its position on the Fee-Forgiving Protocol in the months that followed, even as
NCMC protested and appealed some claims. (See
Pl. Exh. 66; Pl. Exh. 70 (“July 31, 2009 Letter”).)
52. When NCMC appealed a claim to which the FeeForgiving Protocol was applied, Cigna would respond by letter. Letters that upheld the original
decision would say that it was based on Cigna’s
policy of not paying for charges that “patients are
not legally obligated to pay.” (See Pl. Exh. 86B at
1.) The letters would then explain the process for
submitting a second appeal. (See id. at 2.)

83a

53. As set out in the plans, Cigna has a multi-level appeals procedure. (See Def. Exh. 1.014 at CIGNCMC0114174-5 (describing two levels of appeals
and an additional, separate “Independent Review
Procedure”); Def. Exh. 1.035 at CIGNCMC0582434-5 (same).) Appeals of claims are to
be “reviewed and the decision made by [someone/a
health professional] not involved in the initial decision.” (See Def. Exh. 1.014 at CIGNCMC0114174; Def. Exh. 1.035 at CIGNCMC0582435.)
54. Ms. Sharrow, who worked for the SIU until April
2011 (Def. Exh. 14 at ¶ 2), was involved in the appeals process. (Pl. Exh. 86). Notes indicate that
Ms. Sharrow received or handled thousands of appeals and “sent back w/ direction” or “sent back w/
with instruction.” (Id.) The same notes indicate:
“The appeals unit will are [sic] the ones who make
the final decision of how claim is going to be handled. SIU can only make recommendations that is
why we do not get involved with appeals.” (Id. at
CIG-NCMC0012252.) In a discussion of an NCMC
claim on December 1, 2009, Ms. Sharrow’s notes
say, “We will continue to handle on a claim by
claim basis.” (Id. at CIG-NCMC0012254.) Notes
from that same date state, “recd 1 appeal, handled
without SIU recommendation.” (Id.) In a discussion of an NCMC claim on November 4, 2009, Ms.
Sharrow writes, “I advised why OON [out-of-network] claim should remain denied and recommended not to enhance since NCMC does not collect member responsibility,” but indicates that if

84a
NCMC can show how member is being held responsible for the entire amount, then she would
advise differently. (Id. at CIG-NCMC0012256.)
The SIU sometimes communicated with Cigna’s
in-house counsel. (See, e.g., Pl. Exh. 86 at CIGNCMC0012256.)
55. Sometimes the person reviewing the claim would
respond to Ms. Sharrow’s recommendation to indicate that the appeal would be upheld−and sometimes this affirmation email would be sent the
same day that Ms. Sharrow sent her recommendation. (Pl. Exh. 86A at CIG0NCMC0547692.)
III. CONCLUSIONS OF LAW
Legal Standard
1. A benefits plan participant may bring a civil action
under ERISA § 502(a)(1)(B) “to recover benefits
due him under the terms of the plan, to enforce his
rights under the terms of the plan, or to clarify his
rights to future benefits under the plan.” 29 U.S.C.
§ 1132(a)(1)(B). Healthcare providers may bring
ERISA suits standing in the shoes of their patients. N. Cypress I, 781 F.3d at 191.
2. ERISA claimants are required to exhaust administrative remedies prior to filing a lawsuit. Denton
v. First Nat’l Bank of Waco, 765 F.2d 1295, 1301
(5th Cir. 1985); see also Hall v. Nat’l Gypsum Co.,
105 F.3d 225, 231 (5th Cir. 1997) (the exhaustion
requirement “is not one specifically required by
ERISA, but has been uniformly imposed by the
courts in keeping with Congress’s intent in enacting ERISA”). “Exhaustion is to be excused only in

85a
the most exceptional circumstances.” Davis v.
AIG Life Ins. Co., No. 95-60664, 1996 WL 255215,
at *2 (5th Cir. Apr. 26, 1996) (citing Commc’ns
Workers of Am. v. AT&T, 40 F.3d 426, 433 (D.C.
Cir. 1994)). A claimant is excused from demonstrating exhaustion if she can show that pursuit of
administrative remedies would have been futile.
Bourgeois v. Pension Plan for Employees of
Santa Fe Int’l Corps., 215 F.3d 475, 479 (5th Cir.
2000). To qualify for the futility exception to the
exhaustion requirement, the claimant must show
a “certainty of an adverse decision.” Id. (citing
Commc’ns Workers of Am., 40 F.3d at 433) (emphasis in original); see also Rando v. Standard
Ins. Co., 182 F.3d 933 (10th Cir. 1999); Lindemann
v. Mobil Oil Corp., 79 F.3d 647, 650 (7th Cir. 1996).
The claimant is also required to show hostility or
bias on the part of the administrative review committee. McGowin v. ManPower Int’l, Inc., 363
F.3d 556, 559 (5th Cir. 2004). The focus of futility
is on the bias in the review process, not based on
company officials’ views. Bourgeois, 40 F.3d at
479−80 (reasoning that a “company’s preclusive
interpretation . . . does not establish that the actual Committee would not have considered his
claim.”); see also Commc’ns Workers of Am., 40
F.3d at 433 (“[T]his Court will not assume that,
merely because members of a pension-plan review
committee are drawn from a company’s management, the review committee will never reach an interpretation of the plan different from that of the
company.”).

86a
3. The Fifth Circuit has adopted a multi-step process
for determining whether a plan administrator
such as Cigna abused its discretion in construing
a plan’s terms.
4. “The first question is whether Cigna’s reading of
the plans is ‘legally correct.’ ” Conn. Gen. Life Ins.
Co. v. Humble Surgical Hosp., L.L.C., 878 F.3d
478, 483 (5th Cir. 2017) (“Humble”) (quoting
North Cypress I, 781 F.3d at 195). The most important factor at this stage is whether the contested interpretation is consistent with a fair reading of the plan. Gosselink v. Am. Tel. & Tel., 272
F.3d 722, 727 (5th Cir. 2001). Because ERISA requires that plan descriptions be written in a manner calculated to be understood by the average
plan participant, the court must assess whether
the administrator’s interpretation is consistent
with the plan language in its “ordinary and popular sense.” 29 U.S.C. § 1022(a); Stone v. UNOCAL
Termination Allowance Plan, 570 F.3d 252, 260
(5th Cir. 2009). Additional factors in determining
whether an administrator’s interpretation is legally correct include whether the administrator
has given the plan a uniform construction and
whether there are any unanticipated costs resulting from different interpretations of the plan.
Crowell, 541 F.3d at 312. If the plan is legally correct, “the inquiry ends and there is no abuse of discretion.” Humble, 878 F.3d at 483 (quoting Stone,
570 F.3d at 257).

87a
5. Second, if the court finds the insurer’s interpretation was legally incorrect, the court must then determine whether it was an abuse of discretion. Id.
This is the “functional equivalent of arbitrary and
capricious review.” Id. (citing Anderson v. Cytec
Indus., Inc., 619 F.3d 505, 512 (5th Cir. 2010)
(quoting Meditrust Fin. Servs. Corp. v. Sterling
Chems., Inc., 168 F.3d 211, 214 (5th Cir. 1999))).
“A decision is arbitrary if it is made without a rational connection between the known facts and the
decision.” Id. (citation omitted). “[O]rdinarily,” the
abuse of discretion factors that courts consider are
“whether [the administrator] had a conflict of interest, as well as the internal consistency of the
plan and the factual background of the determination and any inferences of lack of good faith.” Id.
at 484 (quotation omitted).
6. In some circumstances, “where an administrator’s
interpretation is supported by prior case law, it
cannot be an abuse of discretion−even if the interpretation is legally incorrect.” Id. (applying the
rule that an administrator may interpret plans
consistent with prior case law without adopting
this as a bright-line rule).
7. Third, the court determines whether the insurer’s
decision to deny benefits was supported by substantial evidence. Id. (citation omitted).
8. Deviation from the three-step test is possible; the
court may “skip the first step if it can more readily
determine that the decision was not an abuse of

88a
discretion.” Id. at 483-84 (citing Holland, 576 F.3d
at 246 n.2).
9. The abuse of discretion standard, however, does
not apply to insurance policies that were effective
or amended after January 1, 2012; for those policies, courts apply de novo review. Ariana M. v.
Humana Health Plan of Texas, Inc., 884 F.3d 246
(5th Cir. 2018).
Reconsideration of Administrative Exhaustion
10. The Court granted summary judgment “to Cigna
for all claims for which [NCMC] did not exhaust
administrative remedies.” (Doc. No. 521 at 15-16.)
In 3 of 24 appeals presented in the cross-motions
for summary judgment, Cigna reversed its decision and paid the full requested amount, and in 3
other appeals Cigna partially reversed itself. (Doc.
No. 521 at 15-16.) The Court adopted Cigna’s
claim-by-claim exhaustion analysis from summary
judgment briefing because NCMC failed to meaningfully address it. (Doc. No. 568.) Thus, 575
claims for benefits remained under ERISA §
502(a)(1)(B).
11. Before trial, NCMC moved, for a second time, for
the Court to reconsider its administrative exhaustion ruling. (Doc. No. 577.) At trial, the Court permitted NCMC to present exhaustion-related evidence in the form of an “offer of proof.”
12. First, NCMC’s present motion for reconsideration is largely based upon two exhibits that were
produced in discovery in August 2017 (after the

89a
Court’s ruling on exhaustion). (See Doc. No. 578
(cover letter to document production, dated August 31, 2017.) The exhibits are the case notes of
members of the SIU at Cigna. (See Pl. Exh. 86.)
NCMC argues that these documents show that
the SIU improperly controlled the appeals process, rendering appeals futile.
13. The recently-produced case notes cover a critical
time period, but the information in them about
how the SIU was involved in appeals was not new.
The case notes produced in August 2017 are a continuation of case notes that had been produced
several years ago. (Doc. No. 581-4 (Letter from J.
Douglas Sutter to Joshua Simon, Aug. 14, 2017).)
The previously-produced notes covered the time
period of November 8, 2008 through January 14,
2010. (Id.) The new notes cover the time period of
January 14, 2010 through July 31, 2012. In summary, the case notes show that the SIU received
or handled thousands of appeals and “sent back w/
direction” or “sent back w/ with instruction.” (Pl.
Exh. 86.) They were being sent back to the actual
claims administrators. The same “sent back with
direction” language appears in the earlier set of
case notes; which were available to NCMC years
before the summary judgment motions and exhaustion rulings. (See Doc. No. 582-5 at CIGNCMC0012251.)
14. The recently-produced case notes do not alter the
fact that−as Cigna demonstrated at summary
judgment−NCMC could not show certainty of de-

90a
nial because Cigna was willing to grant some appeals and modify some payments. Also, there are
occasional instances where the case notes indicate
that Cigna would “adjust” a claim based on how
much the patient paid the provider, demonstrating
that, with more information about the patient’s
share of the payment, Cigna would reassess its
benefits determination. (See Doc. No. 578 at CIG
NCMC0719000 (“With regards to NCMC your
EOB reflects $250 but we will adjust your claim
accordingly since you paid the provider
$1103.35.”), CIG NCMC0719004 (“if the employer
has proof of payment from a member showing
what the member paid at the time of service such
as a credit card receipt, etc. we will adjust claim
accordingly possibly allowing an additional payment”).)
15. Second, NCMC maintains that the Court was
wrong on the law by applying a “certainty of an
adverse decision” on appeal standard. This Court
maintains that it applied the correct standard. A
claimant is excused from demonstrating exhaustion if she can show that pursuit of administrative
remedies would have been futile. Bourgeois, 215
F.3d at 479. To qualify for the futility exception to
the exhaustion requirement, the claimant must
show a “certainty of an adverse decision.” Id. (citing Commc’ns Workers of Am., 40 F.3d at 433)
(emphasis in original). 4
NCMC suggests that instead this court follow an approach from another circuit, citing to Productive MD, LLC v. Aetna Health, Inc., 969
F. Supp. 2d 901 (M.D. Tenn.). In Productive MD, an out-of-network
medical test provider alleged that a health insurer wrongfully failed
4

91a

16. The cases that NCMC cites are inapposite. First,
in Encompass Office Sols., Inc. v. Conn. Gen. Life
Ins. Co., 2017 WL 3260834 (N.D. Tex., July 31,
2017), the district court did not reach the question
of administrative exhaustion. Second, in Encompass Office Sols., Inc. v. La. Health Srv. & Indemn. Co., 2013 WL 12310676 (N.D. Tex. Sept. 17,
2013), the district court was convinced that the single exhausted claim was evidence that seeking further review of other claims meant they would be
denied because the claims were “very similar” and
“would merely produce an avalanche of duplicative proceedings.” Id., at *15 (quoting In re
Household Int’l Tax Reduction Plan, 441 F.3d
500, 501-02 (7th Cir. 2006) (holding that unnamed
class members are not required to exhaust remedies as a condition to being members of the class)).
Later in that case, the district court found a demand letter indicating the insurer’s intention to
reject any claim for benefits to be a compelling basis for futility. (Findings of Fact and Conclusions
of Law at 5, Encompass Office Sols., Inc. v. La.
Health Srv. & Indemn. Co., 3:11-cv-01471-M, ECV
Doc. No. 601.) Here, in contrast, Cigna explained
to pay claims in order to coerce it into network contract at unreasonably low reimbursement rates. About 45 claims were exhausted and
denied, and the provider argued that exhausting the others (approximately 120 claims) would be futile. The district court agreed that it
would have been futile based on the futility factors set out in Fallick
v. Nationwide Mut. Ins. Co., 162 F.3d 410 (6th Cir. 1998). The Fifth
Circuit has never cited to Fallick. See also Gosselink v. Am. Tel. &
Tel., Inc., No. CIV.A. H-97-3854, 1999 WL 33737443, at *3 n.3 (S.D.
Tex. Aug. 9, 1999).

92a
what information was necessary on appeals and,
once again, did sometimes change the amount paid
on a claim. Third, in Arapahoe Surgery Ctr. LLC
v. Cigna Healthcare, Inc., 2016 WL 1089697 (D.
Colo., March 21, 2016), the district court recognized that the Seventh Circuit applies the (same)
certainty standard and found that exhaustion was
futile because of Cigna’s blanket fee-forgiving policy, but the district court did not recognize that
any claims were successfully appealed, in contrast
to the present circumstances.
17. Third, NCMC objects that Cigna’s appeal requirements were not clear and NCMC was not provided
the plans. This argument also fails. A plaintiff cannot be excused from exhausting administrative
remedies on the basis that he was not provided
with plan documents or a summary plan description unless there was no other way for him to know
how to appeal. Gonzalez v. Aztex Advantage, 547
Fed. Appx. 424, 428 (5th Cir. 2013) (lack of summary plan description was no excuse for failure to
exhaust administrative remedies where the notice
of denial clearly stated where to address the appeal); see also Bourgeois, 215 F.3d at 480-81 (provided limited relief to a plaintiff who was not provided a summary plan description where the only
way the plaintiff could have found the address of
the appeals committee was in the summary plan
description). Here, the denial letters indicated the
process for submitting a second-level appeal.
18. NCMC’s Motion for Reconsideration is DENIED.

93a
Scope of Remaining Claims
19. The Fifth Circuit found that the patients assigned
their rights under their insurance contracts to
NCMC, and that NCMC has standing under
ERISA to enforce the contracts. N. Cypress I, 781
F.3d at 191-95. On remand, at the summary judgment stage, NCMC was unable to produce written
assignments of benefits for a fraction of the benefits claims. (Doc. No. 521 at 16.) The Court considered whether those patients had actually assigned
their benefits to be a disputed issue of material
fact. (Id. at 17.) Based on reliable trial testimony
that all patients actually assigned their benefits,
this Court finds that all of the claims at issue were
properly assigned to NCMC. See also Encompass
Office Solutions v. Cigna, 2017 WL 3268034, at *9
(N.D. Tex., July 31, 2017).
20. Of the 575 claims remaining at trial, 395 were
MRC-2 claims. Cigna argued at trial that 395 of
them were MRC-2 claims to which the Fee-Forgiving Protocol was not applied. Trial testimony
demonstrated that the parties no longer dispute
the (non-emergency room) MRC-2 claims. Cigna
did not apply the Fee-Forgiving Protocol to the
MRC-2 and those are no longer within the scope
of this case. NCMC’s own witness stated that the
Fee-Forgiving Protocol “was not intended to be
applied against [MRC-2] claims” (Tr. 4-187:9-13
(Sherry)), and NCMC’s expert admitted that
Cigna generally didn’t apply the Fee-Forgiving
Protocol to MRC-2 claims (Tr. 5-196:16-18 (Tankersley)). Then, in its post-trial brief, NCMC

94a
writes, “by its own admission, Cigna did not apply
the [Fee-Forgiving] Protocol to MRC-2 plan
claims.” (Doc. No. 662 at 70.) This leaves 180 remaining claims.
21. Trial testimony also indicates that the parties no
longer dispute the emergency room claims. Where
Cigna applied the Fee-Forgiving Protocol to
them, those claims remain within the scope of the
dispute.
Reconsideration of Abuse of Discretion
22. All of the 180 claims remaining in this case are
subject to self-funded plans or to insurance policies that predate January 1, 2012. Therefore, the
abuse of discretion standard applies, and Ariana
M. has no bearing on this case.
23. Before trial, this Court believed part of its legal
analysis on NCMC’s ERISA § 502(A)(1)(b) claim
was collaterally estopped by the district court decision in Connecticut General Life Insurance Co.,
et al. v. Humble Surgical Hosp., LLC, C.A. No.
4:13-cv-3291, 2016 WL 3077405 (S.D. Tex. Jun. 1,
2016). (Doc. No. 521 at 8-9 (applying collateral estoppel and holding that Cigna’s interpretation of
the plan language was legally incorrect).) Shortly
after trial in the present case, the Fifth Circuit vacated in part and reversed in part the district court
opinion that this Court previously relied upon.
Humble, 878 F.3d 478. Humble concerned Cigna’s
application of the Fee-Forgiving Protocol, and the
Fifth Circuit stated, “even if [Cigna’s] construc-

95a
tion of the plans’ exclusionary language was legally incorrect, its interpretation still fell within its
broad discretion.” Id. at 484. The Court will therefore reconsider its ruling on NCMC’s §
502(A)(1)(b) claim.
24. In two recent cases the Fifth Circuit has skipped
the legal correctness analysis. Humble, 878 F.3d
at 483-84 (citing Holland, 576 F.3d at 246 n.2). One
of those cases involved Cigna’s Fee-Forgiving
Protocol, id, and the other involved NCMC’s
Prompt Pay Discount. This Court will do the same.
25. Cigna interpreted the plans to require an out-ofnetwork healthcare provider to collect the full portion of coinsurance from a patient. With the FeeForgiving Protocol, Cigna would pay benefits
claims amounts to NCMC based on the assumption that what NCMC charged the patient was the
correct coinsurance amount, calculated using the
coinsurance percentages in the plans. Thus, Cigna
would assume that what the patient had paid was
40 percent of the “normal” charge for the service,
and Cigna would pay the remaining 60 percent.
Cigna invited NCMC to appeal these determinations by providing proof of the amounts that the
patient paid. (See Pl. Exh. 39.)
26. In Humble, Cigna had interpreted plans the same
way. The Fifth Circuit held that Cigna’s interpretation falls within its “broad discretion.” Humble,
878 F.3d at 484. Fifth Circuit noted the Supreme
Court’s explanation that deference to the plan ad-

96a
ministrator’s decisions “serves the interest of uniformity, helping to avoid a patchwork of different
interpretations of a plan, like the one here, that covers employees in different jurisdictions−a result
that ‘would introduce considerable inefficiencies in
benefit program operation, which might lead those
employers with existing plans to reduce benefits,
and those without such plans to refrain from
adopting them.’ ” Id. (quoting Conkright v. Frommert, 559 U.S. 506, 517 (2010)). The Fifth Circuit
dismissed the ordinary abuse of discretion factors
in favor of a legal policy that “where a plan administrator’s interpretation is supported by prior case
law, it cannot be an abuse of discretion−even if the
interpretation is legally incorrect.” Id. (citing Hinkle ex rel. Estate of Hinkle v. Assurant Inc., 390
Fed. Appx. 105, 108 (3d Cir.) (applying the rule
that an administrator may interpret plans consistent with prior case law without adopting this as
a bright-line rule); McGuffie v. Anderson Tully
Col., 2014 WL 4658971, at *3-4 (S.D. Miss. Sept.
17, 2014).
27. The Fifth Circuit concluded that Cigna did not
abuse in Humble because “[a]t least two other
courts have effectively or explicitly concluded that
the provision at issue here was legally correct. Id.
at 485 (citing Kennedy v. Connecticut General
Life Insurance Co., 924 F.2d 698, 701 (7th Cir.
1991) (the Seventh Circuit stated a nearly identical provision “means that the patient must be legally responsible for the whole charge.”); N. Cypress I, 781 F.3d at 196 (this Court’s summary
judgment ruling, which was vacated on other

97a
grounds, was relevant for most of the relevant period that Cigna was interpreting the disputed plan
language here)).
28. One of the courts to which the Fifth Circuit referred had effectively concluded that the provision
at issue here was legally correct at the time that
Cigna was administering NCMC’s claims. In Kennedy, Judge Easterbrook had highlighted the
benefits of requiring patients to pay for part of
their medical care, even when insured: “Co-payments sensitize employees to the cost of health
care, leading them not only to use less but also to
seek out providers with lower fees. The combination of less use and lower charges . . . makes medical insurance less expensive and enables employers to furnish broader coverage (or to pay higher
wages coupled with the same level of coverage).”
924 F.2d at 699. Accordingly, the Seventh Circuit
found that Cigna was entitled to withhold payment
where a healthcare provider had intentionally collected its entire fee from Cigna by waiving patient
contribution. Id. The reasoning in Kennedy is
sound.
29. Cigna explicitly relied on Kennedy by citing it in
letters that Cigna sent to NCMC. (See, e.g., Pl.
Exh. 3B.)
30. Additionally, in a case that the Fifth Circuit recognizes involves “substantially similar facts” as the
instant case, the healthcare provider’s ERISA
claim failed as a matter of law. North Cypress
Medical Center Operating Company, Ltd. v.

98a
Aetna Life Insurance Company, No. 16-20674,
2018 WL 3635231, at *1 n.1 (5th Cir. July 31, 2018)
(“North Cypress II”). NCMC was also the plaintiff
in North Cypress II, and brought an ERISA claim
against a different plan administrator for underpayment of benefits. NCMC was also out-of-network with that insurer and offering patients the
Prompt Pay Discount. The plan administrator was
recognized to have “discretionary authority to determine eligibility for benefits and construe plan
terms.” Id. at * 1.
31. In the interest of uniformity of decisions,
Conkright, 559 U.S. at 517, and adhering to the
prior case law of Kennedy, Humble, 878 F.3d at
484, this Court concludes that Cigna did not abuse
its discretion.
32. A review of the traditional abuse of discretion factors supports this conclusion. First, while Cigna
had a conflict of interest, trial testimony that
Cigna took steps to reduce its conflict (with respect to the cost-containment plan). (Tr. 4-44:2345:4, 4-151:6-10 (Sherry).) Cigna “turned off” the
cost-containment programs that could result in
Cigna collecting savings in some circumstances
when it implemented the Fee-Forgiving Protocol.
(Id.) Also, a trial exhibit showing summaries of
fees revealed that Cigna made significantly more
money from fees on NCMC claims before the FeeForgiving Protocol was in place than in the years
in which it was implemented. (See Pl. Exh. 85B.)
“[W]here the administrator has taken active steps
to reduce potential bias and promote accuracy,”

99a
conflicts of interest are afforded less weight in the
abuse of discretion analysis. Hagen v. Aetna Ins.
Co., 808 F.3d 1022, 1027 (5th Cir. 2015); see also
Arapaho Surgery Center, LLC, 171 F.Supp.3d at
1113 (even where there is a conflict of interest, a
court can conclude that an administrator did not
abuse its discretion). Second, Cigna’s interpretation of the plans was consistent with other parts of
the plans. 5 Third, this Court previously concluded
The Court’s conclusion about consistency of plan language is unchanged since summary judgment. (See Doc. No. 521 at 12.) NCMC
presented the same arguments then that it does now. First, NCMC
argues that the following two parts of the plans are inconsistent: (1)
Payment for “charges which [the patient is] not obligated to pay or
for which you are not billed” are “specifically excluded” from the plan;
and (2) “The provider may bill you for the difference between the provider’s normal charge and the Maximum Reimbursable Charge, in
addition to applicable deductibles, copayments and coinsurance.” (See
Pl. Exh. 87 at CIG-NCMC0094360; Def. Exh. 1.026 (“TransCore, LP
ASO”) at CIG-NCMC0156030; Def. Exh. 1.035 (“Cy Fair ISD ASO”)
at CIG-NCMC0582421.) NCMC argues that Cigna’s interpretation
converts the “may” language to “shall” language. Those statements
are not clearly inconsistent. Rather than reading as if the provider
has discretion as to whether to charge a patient their coinsurance
amount, it seems to suggest that the provider could charge patients
more than their coinsurance amount where the provider’s normal
charge exceeds what reimbursements the plans contemplate.
5

Second, NCMC argues that Cigna interpreted the plan language
inconsistently across providers. This is not the question of internal
inconsistency that the abuse of discretion factor raises. And, in fact,
Cigna has consistently reduced payments to out-of-network providers when it concluded that the out-of-network providers were not collecting the full coinsurance amount. Humble, 878 F.3d 478; Arapaho
Surgery Center, LLC, 171 F.Supp.3d 1092.
Third, NCMC argues that Cigna applied its interpretation of the
plans inconsistently between MRC-1 and MRC-2 claims and between
in-network and out-of-network providers. (Doc. No. 662 at 79.) Again,

100a
that the factual background and lack of good faith
factor weighed “heavily” in NCMC’s favor because there were “strong inferences” that Cigna
did not act in good faith. (Doc. No. 521 at 14.) The
Court’s position was based on evidence that
Cigna’s “true motivation for the Fee-Forgiving
Protocol was to negotiate an in-network contract,
not to prevent harmful externalities in the insurance market.” (Id.) Some trial evidence suggests
that both the Prompt Pay Discount and the FeeForgiving Protocol were implemented to improve
each party’s respective negotiating position. (See
Def. Exh. 37 (“Access NCMC Powerpoint”) at
NCMC26 0069499-501; Pl. Exh. 16 (“Targeted non
par facility e-mail and powerpoint”) at CIGNCMC0398827; Pl. Exh. 23; Pl. Exh. 53 (discussing what contract to offer NCMC after implementing the Fee-Forgiving Protocol).) At the
same time, trial testimony presented two good
faith bases for the Fee-Forgiving Protocol: (1)
concerns that the employer sponsors of ASOs
were losing money while NCMC administered the
Prompt Pay Discount and would have to raise the
price of insurance on all plan members (Tr. 3192:20-24 (Sherry); Def. Exh. 62 (E-mail from
Jurney to Behar) at NCMC8 29896); and (2) the
importance of “sensitiz[ing] employees to the cost
NCMC’s arguments are not based on plan language inconsistencies,
but plan application inconsistencies. These arguments are unpersuasive. MRC-1 and MRC-2 are different types of charges. Enforcing coinsurance rates for out-of-network providers and not for in-network
providers is consistent with the policy of encouraging patients to seek
in-network care to keep health care costs lower for the employers who
fund the ASOs.

101a
of health care, leading them . . . to seek out providers with lower fees” and make medical insurance
less expensive for all, Kennedy, 924 F.2d at 699.
See also SmileCare Dental Grp. v. Delta Dental
Plan of Cal., Inc., 88 F.3d 780, 783 (9th Cir. 1996)
(noting approval of an insurer prohibiting waiver
of coinsurance).
33. The Court must also address whether Cigna’s interpretation was based on substantial evidence.
34. “Substantial evidence is more than a scintilla, less
than a preponderance, and is such relevant evidence as a reasonable mind might accept as adequate to support a conclusion.” Humble, 878 F.3d
at 485 (quoting Corry v. Liberty Life Assurance
Co. of Bos., 499 F.3d 389, 398 (5th Cir. 2007)). In
making this inquiry, the Court is “constrained to
the evidence before the plan administrator.” Id.
(citing Killen v. Reliance Standard Life Ins. Co.,
776 F.3d 303, 312 (5th Cir. 2015)).
35. Where Cigna has reduced benefits payments
based on survey responses, that show the
healthcare provider forgave out-of-network coinsurance amounts, courts have found Cigna’s actions to be supported by substantial evidence.
Both in Humble and in the present case, Cigna
sent surveys to patients who had received treatment at the applicable provider and requested additional information. There, Cigna received 154 responses that supported Cigna’s determination
that the provider was fee-forgiving, and the Fifth
Circuit considered that substantial evidence.

102a
Humble, 878 F.3d at 485-86. Similarly, a district
court in Colorado concluded that where, as a result
of patient surveys, Cigna concluded that the provider was only charging patients 150 percent of
Medicare and then paid the provider accordingly,
Cigna’s interpretation of the plans was based on
substantial; however, where Cigna completely denied coverage, it had abused discretion. 6 Arapaho
Surgery Center, LLC, 171 F.Supp.3d at 1113.
36. Here, Cigna sent a total of 62 survey letters and
received 19 responses before implementing the
Fee-Forgiving Protocol, as well as an additional 8
responses after implementing the Fee-Forgiving
Protocol. (Def. Exh. 14 at ¶¶ 4, 9 (Declaration of
Katrina Sharrow).) NCMC did not bill any of the
members the amounts they were required to pay
under their plans. (Id. at ¶ 13; see also Pl. Exh. 86
(SIU Case Notes).) Moreover, NCMC had informed Cigna, in Notice of Discount Letters and
on UB-04 claims forms that it offered patients discounts, though NCMC did not explain the discounts. (See, e.g., Pl. Exh. 1; Def. Exh. 84.) Cigna
had substantial evidence of that NCMC was discounting or forgiving out-of-network coinsurance.
37. Twelve of the 19 initial respondents said they were
billed nothing and paid nothing. (Id.) Five of the
other initial respondents paid around $100, which
is the amount that Cigna believed NCMC was
charging patients, as it told NCMC. (Id. at ¶ 7.)
6
It is unclear how many survey responses Cigna received in Arapahoe.

103a
Cigna then administered claims based on the assumption that the patients had paid $100 in coinsurance. At no time−when collecting the survey
responses or in communications with NCMC prior
to this litigation−did Cigna learn that NCMC was
calculating patient responsibility based on 125
percent of Medicare. Cigna had “more than a scintilla” of relevant and reasonable evidence that the
normal charges for claims produced $100 coinsurance amounts for patients. Humble, 878 F.3d at
485.
IV.

CONCLUSION

Any Finding of Fact that should be a Conclusion of
Law shall be deemed such, and any Conclusion of Law
that should be a Finding of Fact shall be deemed such.
Based on the foregoing Findings of Fact and Conclusions of Law, the Court finds and holds for Cigna. Accordingly, NCMC’s Motion to Compel Cigna to Adjudicate
Claims (Doc. No. 418) is DENIED as moot.
IT IS SO ORDERED.
SIGNED at Houston, Texas on this the 7th day of August, 2018.
s/ Keith P. Ellison
HON. KEITH P. ELLISON
UNITED STATES DISTRICT JUDGE

104a
APPENDIX E
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
CIVIL ACTION NO. 4:09-CV-2556
NORTH CYPRESS MEDICAL CENTER
OPERATING CO., LTD., et al.,
Plaintiffs,
v.
CIGNA HEALTHCARE, et al.,
Defendants.
Filed: August 16, 2018
FINAL JUDGMENT
Before KEITH P. ELLISON, United States District
Judge.
Plaintiffs North Cypress Medical Center Operating
Co., Ltd. and North Cypress Medical Center Operating
Company, GP, LLC (collectively “NCMC”) filed suit
against Defendants Cigna Healthcare and Connecticut
General Life Insurance Company on August 11, 2009,
seeking relief under state law and the Employee Retirement Income Security Act (“ERISA”). (Doc. No. 1.). The
Court commenced a bench trial on October 10, 2017, and
issued its Findings of Fact and Conclusions of Law on August 7, 2018. (Doc. No. 692.)

105a
Pursuant to Federal Rule of Civil Procedure 58(a),
and for the reasons set forth in the Court’s Findings of
Fact and Conclusions of Law, final judgment is hereby
ENTERED for Defendant Cigna Healthcare and Connecticut General Life Insurance Company.
IT IS SO ORDERED.
SIGNED at Houston, Texas on this the 16th day of
August, 2018.
s/ Keith P. Ellison
HON. KEITH P. ELLISON
UNITED STATES DISTRICT JUDGE

106a
APPENDIX F
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-20576
NORTH CYPRESS MEDICAL CENTER
OPERATING COMPANY, LIMITED; NORTH
CYPRESS MEDICAL CENTER OPERATING
COMPANY GP, L.L.C.,
Plaintiffs-Appellants,
v.
CIGNA HEALTHCARE; CONNECTICUT
GENERAL LIFE INSURANCE COMPANY;
CIGNA HEALTHCARE OF TEXAS,
INCORPORATED,
Defendants-Appellees.
Filed: April 21, 2020
Appeal from the United States District Court
for the Southern District of Texas
ON PETITION FOR REHEARING EN BANC
(Opinion: 3/19/20, 5 Cir.,

,

F. 3d.

Before KING, JONES, and DENNIS,
Circuit Judges.
ORDER

)

107a
PER CURIAM:
(X)

Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. No member of the
panel nor judge in regular active service of the
court having requested that the court be polled on
Rehearing En Banc (FED. R. APP. P. and 5TH CIR.
R. 35), the Petition for Rehearing En Banc is
DENIED.

( )

Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. The court having
been polled at the request of one of the members of
the court and a majority of the judges who are in
regular active service and not disqualified not having voted in favor (FED. R. APP. P. and 5TH CIR. R.
35), the Petition for Rehearing En Banc is
DENIED.
ENTERED FOR THE COURT:
s/ Edith H. Jones
UNITED STATES CIRCUIT JUDGE

